<html>
<title> - HOW DO WE ENSURE A ROBUST FEDERAL RESPONSE TO A CATASTROPHIC EARTHQUAKE IN THE NEW MADRID REGION?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
      HOW DO WE ENSURE A ROBUST FEDERAL RESPONSE TO A CATASTROPHIC 
                  EARTHQUAKE IN THE NEW MADRID REGION?

=======================================================================

                                (109-49)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                 FEBRUARY 24, 2006 (ST LOUIS, MISSOURI)

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                    U.S. GOVERNMENT PRINTING OFFICE
28-264                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

                  BILL SHUSTER, Pennsylvania, Chairman

JIM GERLACH, Pennsylvania            ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas, Vice-Chair    Columbia
CHARLES W. DENT, Pennsylvania        MICHAEL H. MICHAUD, Maine
JOHN R. `RANDY' KUHL, Jr., New York  LINCOLN DAVIS, Tennessee
DON YOUNG, Alaska                    JULIA CARSON, Indiana
  (Ex Officio)                       JAMES L. OBERSTAR, Minnesota
                                       (Ex Officio)

                                 (iii)

  
                                CONTENTS

                               TESTIMONY

                                                                   Page
 Burke, William C., Director, Illinois Emergency Management 
  Agency.........................................................    24
 Pawlowski, Michael S., Federal Emergency Management Agency......     7
 Reynolds, Ronald, Director, Missouri Stste Emergency Management 
  Agency.........................................................    24
 Schweig, Dr. Eugene "Buddy", U.S. Geological Survey.............     7
 Talent, Hon. James, Former U.S. Senator from the State of 
  Missouri.......................................................    36
 Van Uum, Betty, Assistant to the Chancellor, University of 
  Missouri.......................................................     1
 Wilkinson, Jim, Central United States Earthquake Consortium.....     7

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Burke, William C................................................    41
 Pawlowski, Michael S............................................    43
 Reynolds, Ronald................................................    53
 Schweig, Dr. Eugene "Buddy".....................................    58
 Wilkinson, Jim..................................................    78


HOW DO WE ENSURE A ROBUST FEDERAL RESPONSE TO A CATASTROPHIC EARTHQUAKE 
                       IN THE NEW MADRID REGION?

                              ----------                              


                       Friday, February 24, 2006

        House of Representatives, Subcommittee on Economic 
            Development, Public Buildings and Emergency 
            Management, Committee on Transportation & 
            Infrastructure, Washington, D.C.
    The subcommittee met pursuant to call at 9:00 a.m. At 
University of Missouri, One University Boulevard, St. Louis, 
Missouri 63121, Bill Shuster [chairman of the subcommittee], 
presiding.
    Mr. Shuster. The subcommittee will come to order. First I'd 
like to recognize Betty Van Uum from the University of 
Missouri. Betty.

   TESTIMONY OF BETTY VAN UUM, ASSISTANT TO THE CHANCELLOR, 
                     UNIVERSITY OF MISSOURI

    Ms. Van Uum. Thank you, Mr. Shuster. I'm Betty Van Uum, the 
Chancellor's Assistant from the University of Missouri, and I 
bring you greetings on behalf of our administration. We think 
this is a great honor, Mr. Shuster, and we're very pleased to 
have a congressional hearing on our campus. It's a great 
learning experience for our kids and a great honor for us.
    So we thank you very much for coming. We welcome your 
colleagues. We welcome all of you who are going to testify. I 
hope you have a productive morning. I only have one little 
announcement. We have coffee and donuts in the hall at the--in 
the room at the end of the hall. So if any of you need that to 
stay awake--no. If any of you would like that, please feel free 
to help yourself. And welcome.
    Mr. Shuster. Thank you very much. Appreciate it. I really 
appreciate the University of Missouri for hosting us here 
today, and I've got to make sure I say this up front. When I 
look at the New Madrid line--I want to say Madrid, takes me 
back to my Spanish. So if I fall into calling it Madrid, please 
overlook that, and you know what I'm talking about.
    I want to thank Mrs. Emerson for her work on this issue, 
including assembling a congressional working group for the New 
Madrid Seismatic Zone. I know she has a strong interest in 
ensuring that the Federal Government has learned the hard 
issues, hard lessons of Katrina, and is prepared to respond to 
a catastrophic earthquake in the New Madrid region. I welcome 
your participation here and thank you for having us.
    I also want to thank Mr. Carnahan for his participation 
today. Both of you have shown a great deal of interest in the 
response to Hurricane Katrina and reforming the current 
emergency management system. I look forward to your 
contributions here today also.
    I want to ask unanimous consent that Mrs. Emerson and Mr. 
Carnahan be permitted to sit with the subcommittee at today's 
hearing and offer testimony and ask questions. Without 
objections, so ordered.
    I also want to thank our witnesses for being here today. We 
are meeting this morning to receive State and local input for 
improving emergency management capabilities and readiness at 
the Federal, State, and local levels.
    Hurricane Katrina revealed problems in the emergency 
management system at all levels of government that have to be 
addressed--and you have a role in guiding the efforts to fix 
those problems--after all, you are the end users.
    Unfortunately, this hasn't always been a collaborative 
process. Too often the Federal Government has failed to take 
into account your views. There has never been a greater need 
for your professional advice and expertise. We have to get this 
right, and we need your help to do it.
    Like Hurricane Katrina, a catastrophic disaster in the New 
Madrid region would destroy the infrastructure, leave tens of 
thousands homeless and paralyze the region.
    The New Madrid "seismatic" region stretches from Arkansas, 
Mississippi, north through Tennessee, Missouri, Kentucky, and 
Illinois. Since 1974, over 4,000 earthquakes, most too small to 
notice, have been recorded. The large metropolitan areas of 
Mississippi, Tennessee, and St. Louis, Missouri are located in 
the New Madrid region.
    Because this region lacks widespread seismatic building 
codes, it is estimated that a 7.7 magnitude earthquake in the 
region will cause a direct economic loss of over 70 billion and 
the destruction of over 60 percent of the buildings in the 
region. Without reforms to the current emergency management 
system, we will have another disorganized Federal response like 
that in the gulf coast.
    I was on the House Select Committee that investigated the 
response to Katrina, and our key findings for the Federal 
failure were the plan was flawed and the execution was 
ineffective. There was confusion over who had the authority to 
make decisions; response capabilities were deficient. In some 
places it took weeks before the Federal Government even 
arrived.
    Is the New Madrid region prepared for a week or even 
longer? The conventional wisdom says you only need to be 
prepared for 72 hours. The House Select Committee report found 
the Federal response to Hurricane Katrina was slow because key 
decisions were made late, ineffectively, or not at all.
    Today these decisions about how and when to engage Federal 
response assets are no longer in FEMA. They are with DHS. Also, 
DHS and FEMA responded to Katrina with a business-as-usual 
attitude. Business as usual means sitting back and waiting for 
the State to request assistance instead of proactively getting 
supplies into the field prior to the formal request. Business 
as usual does not work in a catastrophic disaster.
    Following a catastrophic earthquake, the State and local 
government may need Federal assistance before there is a clear 
operating picture. If Federal assistance is needed immediately 
to save lives and prevent suffering, should the Federal 
Government wait for the State to follow protocol? Can the 
people of the New Madrid region wait for help while the Federal 
Government demands that the State follows bureaucratic 
procedures? We cannot afford to get it wrong again.
    Additionally, the report found the government failed to 
effectively execute response plans and authorities. This 
failure can be attributed to an inadequate Federal disaster 
workforce.
    At the time Katrina struck, FEMA had 500 vacancies, which 
is about 20 percent of their workforce. This is a small agency 
within a big Department. They cannot afford to be without that 
many people. Without the right number of the right people, this 
will never work.
    If we are to successfully respond to a catastrophic 
earthquake, we must enhance State and local emergency 
management capacity.
    One of the important lessons of Katrina is that the Federal 
Government's ability to respond to a catastrophic disaster is 
often dependent upon the quality of State and local disaster 
systems.
    Disaster management is a shared responsibility, and State 
and local governments need to be able to handle most disasters 
on their own and be prepared to integrate Federal systems into 
their operations during larger events.
    Despite spending over $10 billion on first responders since 
September 11th, it is very difficult to see where these dollars 
resulted in improved capabilities or readiness in our response 
to Hurricane Katrina.
    The report found that inadequate capabilities and readiness 
resulted in the Federal response being overwhelmed in critical 
areas such as logistics, communications, situational awareness, 
and command and control. It is truly staggering that we have 
spent so much on preparedness and have so little to show for 
it. We have to do better.
    These are systemic failures. Clearly, the system needs to 
be reformed. We are here today to hear about the specific 
challenges you face and your recommendations for reform at the 
Federal level.
    At the end of the day, if the Federal Government fails to 
reform itself, then the State and local governments will have 
to face the next disaster and its consequences largely alone 
for the first week or longer. I look forward to hearing from 
you today. And thank you.
    And I'd like to recognize Mr. Carnahan, if you have an 
opening statement.
    Mr. Carnahan. Thank you Mr. Chairman. It's good to be here, 
and I want to thank you for your efforts and your leadership on 
this issue and to the committee on which I'm honored to serve.
    I also want to recognize Congresswoman Emerson for her 
leadership in the Congress on this issue. She has been a very 
key figure in trying to get this to the attention of the people 
that are potentially harmed in this region but also in the 
Congress.
    Also, my friend, Congressman Marion Berry from Arkansas 
who's also been very active in the earthquake preparedness 
caucus in the Congress.
    I wanted to share something I learned, actually, this 
morning over coffee at home. I'd gotten my neighborhood 
newsletter from the Compton Heights neighborhood where I live 
in South St. Louis, and I learned a bit of earthquake trivia I 
had not known before.
    And that is, back at the time of the last earthquake in 
1812, that area of St. Louis was a common field, and there were 
settlements around it, but it was a common field used by the 
community. And it became one of the first Federal Government 
resettlement areas after the New Madrid earthquake.
    So I did not realize that the very neighborhood that I 
lived in had been impacted in the aftermath of that 1812 
earthquake.
    I want to welcome those from out of town--particularly the 
Chairman--to St. Louis and also want to say that I think the 
time is especially appropriate that we assess how prepared the 
Federal Government is to respond to an earthquake in the New 
Madrid region.
    As we have all seen and as we have discovered through a 
series of investigations, the level of preparedness and 
subsequent response to Hurricane Katrina was inadequate. FEMA 
and the Department of Homeland Security failed to protect the 
lives of the very citizens they were charged to protect. And I 
think we are all about trying to learn from the mistakes that 
were made so they don't happen in the future. We need to ensure 
that a similar response does not occur; Not if, but when, we 
are struck with the next damaging earthquake.
    Unlike in 1812, when there were very few people that lived 
in this region, now over 75 million people live in 39 States 
directly vulnerable to a serious earthquake. Moreover, because 
my entire district is contained within the New Madrid Seismic 
Zone, every one of my constituents is subject to losing their 
homes, or worse, their lives, when an earthquake hits our 
region.
    Much of our rich historic infrastructure that makes St. 
Louis such a great place to live--we have more historic brick 
homes and buildings than just about any region in the country--
also makes us especially vulnerable.
    Being prepared for natural disasters is one of the major 
functions of FEMA. However, since the subcommittee is in St. 
Louis today, I'd like to take just a short moment to address 
another one of FEMA's major functions: disaster recovery.
    As the Chairman is aware, the St. Louis region was damaged 
in 1993 by a record Mississippi River flood, and now more than 
12 years later, many parts of this area are still recovering. 
In particular, some of the recovering area in south St. Louis 
County has been placed under the jurisdiction of FEMA's Hazard 
Mitigation Grant Program.
    Due to this placement, the land is deed restricted, and 
further development on it has been stalled. As a result, I'm 
seeking assistance to obtain an easement from FEMA to construct 
a priority transportation improvement project in south St. 
Louis County.
    This project would facilitate thousands of jobs and 
revitalize a devastated area. Members of the Transportation 
Committee have been generous with their advice, from Chairman 
Young on down, and for that I am truly grateful.
    Our country has faced many natural disasters, and as this 
hearing today proves, there is great potential for more. As 
such, we must begin to pay attention to FEMA's ability to 
facilitate long-term recovery. I ask the subcommittee to begin 
to consider this project in south St. Louis County.
    Chairman Shuster, once again, thank you for your 
leadership. I look forward to working with you, Chairman Young, 
Ranking Member Oberstar and the entire subcommittee on these 
important issues.
    And I also want to apologize. I do have to go to another 
meeting at 10:00, so I will step out in a few minutes. Thank 
you.
    Mr. Shuster. We appreciate you being here today, and thank 
you for having us into your--well, I guess it's close to your 
district.
    Mr. Carnahan. Right next door.
    Mr. Shuster. Thank you very much for being here today. Now 
I'd like to recognize Ms. Emerson for an opening statement.
    Mrs. Emerson. Thank you, Mr. Chairman. I really want to 
thank you very much for coming to Missouri and to participate 
in what is a very important issue, critical issue for all of us 
in the State as well as all the contiguous States around us, 
and I'm very grateful to you.
    I also want to thank my colleague, Russ Carnahan, for being 
part of our congressional working group, as well as for all the 
work that he has done and will be doing in the future to help 
us try to meet the expectations that we have in preparing for 
any kind of a natural disaster.
    I also want to thank all of our witnesses for being here 
today and for the work that they continue to do. It isn't easy, 
but it is very, very necessary.
    Having been to New Orleans, Mr. Chairman, 1 week after 
Hurricane Katrina befell that city, and then having been to New 
Orleans 2 weeks ago this week, I haven't seen a lot of 
difference. I mean, obviously, some of the cleanup has been 
done, but it's very, very disheartening to see that our 
agencies have not been working together at any level in the 
system.
    And so this is very important, and I'm very proud of all of 
us in Missouri and all of the States contiguous to us who 
understand and realize that we have so much work to do to 
prepare for any kind of a natural disaster. And the fact that 
you are as interested as you are in it gives me great hope.
    You know, having read at least the executive summary of the 
House Select Committee's report "A Failure of Initiative," it 
is very dismaying and disheartening. And the fact that the 
report concluded that "The preparation for and response to 
Hurricane Katrina show we are still an analog government in a 
digital age," is really something and so very, very true.
    And I sit on the Homeland Security Subcommittee of the 
House Appropriations, and with all of the billions and 
billions, hundreds of billions of dollars that we have given to 
the Department of Homeland Security, it's really shocking to me 
that we still have failures along every step of the way.
    I know that the Department has endeavored to modernize it's 
preparation, mitigation, and response capabilities through 
reorganization and restructuring, but I think almost everybody 
can agree that more work still needs to be done to ensure that 
our emergency managers and first responders at all levels are 
properly equipped to handle the potentially catastrophic 
situation that could occur in Missouri, Illinois, and nearly 
half a dozen other States in event of a major earthquake in the 
New Madrid region.
    And while I am pleased to note that many initiatives 
planned by FEMA, the U.S. Coast Guard, and other DHS agencies 
to address preparedness in our area, "A Failure of Initiative" 
also showed that recognition of potential danger does not equal 
preparedness for the danger.
    We all saw the infamous Hurricane Pam model which obviously 
showed us many dangers of a major hurricane making landfall in 
the New Orleans area. But, really, relatively little was done 
to truly prepare the region for such a disaster. And we cannot, 
we must not make that same mistake twice in preparing for a New 
Madrid disaster.
    As you may know, I, along with Senator Jim Talent, have 
requested a formal exercise that should include FEMA, Coast 
Guard, Corps of Engineers, Department of Defense, State and 
local law enforcement, health care volunteer agencies and 
response agencies.
    Mr. Chairman, a major earthquake along the New Madrid fault 
could have a devastating effect on commerce and infrastructure 
in the entire Midwest. I am so grateful to you for holding this 
hearing today so that we can draw even more attention to this 
important issue, and I look forward to hearing the testimony of 
the witnesses.
    Mr. Shuster. Thank you very much. I'd like to ask unanimous 
consent that all our witnesses' full statements be included in 
the record. Without objection, it's so ordered.
    Since your written testimony has been made part of the 
record, the subcommittee would request that you limit your 
summary to 5 minutes.
    We have three panels of witnesses today. On our first 
panel, we have three witnesses representing the various 
organizations involved in disaster planning from the New Madrid 
region:
    Dr. Schweig and Mr. Wilkinson are going to provide a 
presentation that will demonstrate the likely consequences of a 
catastrophic earthquake in the New Madrid Seismic Zone.
    We'll also hear from Mr. Pawlowski. Did I get that right? 
My Spanish is better than my Slavic.
    Mr. Pawlowski. Pawlowski.
    Mr. Shuster. Pawlowski, who will discuss ongoing efforts to 
plan for an earthquake in the region. Just as the consequence 
of a Category 4 storm hitting New Orleans were well-known, I 
believe it is important that we fully understand what we could 
face here at a moment's notice.
    Dr. Eugene Buddy Schweig is the U.S. Geological Survey--is 
with the U.S. Geological Survey, and Jim Wilkinson is the 
director of Central United States Earthquake Consortium.
    Michael Pawlowski is the acting chief for Incident Response 
Section of the Response Division at the Federal Emergency 
Management Agency.
    We'll hear from all of our witnesses on the panel before 
opening for questions.

 TESTIMONY OF JIM WILKINSON, CENTRAL UNITED STATES EARTHQUAKE 
CONSORTIUM; DR. EUGENE "BUDDY" SCHWEIG, U.S. GEOLOGICAL SURVEY; 
 AND MICHAEL S. PAWLOWSKI, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Shuster. Dr. Schweig, you may proceed.
    Mr. Schweig. Thank you, Mr. Chairman, and members of the 
committee, for this opportunity to appear before you to testify 
in the likelihood and potential effects of a worst-case 
catastrophic earthquake in the New Madrid region.
    Now, it's certainly true there are fewer earthquakes in 
this part of the country than there are in California or in 
Alaska, but by some measures, the hazards that they pose are 
actually as great as many parts of California and Alaska.
    And pardon me in advance. The projector has washed out some 
of these slides so they're a little difficult to see. The first 
thing I want to show you is this map here.
    This is one of the earthquake hazards maps made by the U.S. 
Geological Survey; in fact, the one that feeds into many of the 
building codes that we have in use by many States and many 
municipalities.
    The reddish colors are the higher hazards, and as you see, 
the New Madrid Seismic Zone in the Mississippi Valley there, 
and it's an area of hazard that, although much smaller than the 
large area of high hazard in the West, is still as high as many 
parts of California.
    One thing that drives the fact that we consider the hazard 
high is the 1811 and '12 earthquakes. During that sequence we 
had three earthquakes that were between magnitudes 7.5 and 8, 
although, of course, there weren't any instruments around at 
the time, and then thousands of aftershocks following. And the 
earthquakes continue to this day, and those earthquakes are 
known as the New Madrid Seismic Zone.
    During the, during the--excuse me. During the earthquakes, 
the effects were dramatic. Vast tracts of land sunk and were 
uplifted. This is the Reelfoot Lake in northwestern Tennessee. 
Other areas in Arkansas and Missouri were the same.
    River banks caved all along the Mississippi River. Areas of 
the river were unnavigable for weeks. Islands disappeared; new 
islands formed. Landslides occurred along the bluffs all the 
way from northern Mississippi into southern Illinois and 
Kentucky.
    One of the most dramatic things that remains today are the 
sand blows in southeastern Missouri. And these are areas of 
sand that erupted during the earthquakes. They stand out 
starkly against the Mississippi muds. They can be 100, 200 feet 
across, very dramatic and still visible today.
    And they're important not just because they tell us about 
the earthquake, Because these are a phenomenon that is related 
to what's called liquefaction, and this happens during every 
almost large earthquake. You have strong shaking water 
pressure, increases in the sands that you have below the 
surface soils until the sand turns into a liquid, and the soil 
itself loses its ability to bear weight.
    Many of you may remember the earthquake, the 1989 Loma 
Prieta Earthquake in San Francisco in which buildings in the 
marina district tilted and foundered into the muds. That was 
due to this phenomena of liquefaction. And it's a great hazard 
in this part of the world as I'll show you in a minute.
    This is a little washed out, but it's just supposed to show 
a picture of one of these sand blows in a drainage ditch. And I 
just want to mention that they're not only a major hazard, but 
they've provided a key record of past earthquakes.
    In fact, by studying these prehistoric sand blows, we've 
been able to show that the 1811-12 earthquakes were not just a 
one-time event. We've had similar earthquakes in 1450, 900 AD, 
and other ones as well.
    And perhaps the most important thing is that not only do 
the earthquakes happen repeatedly through time, but each time 
we have an earthquake, they appear to be sequences, just like 
in 1811 and 12. Not one earthquake and its aftershocks, but 
sequences of many earthquakes in a row.
    Another problem that we have that drives the high hazard is 
that earthquake waves travel much farther in this part of the 
country for the same size earthquake like shown here, the New 
Madrid Earthquake, as opposed to the similarly-sized 1906 San 
Francisco Earthquake. You often have around 20 times the area 
of damage in the central and eastern U.S. Than you do in the 
west due to the crust of the earth.
    But we sort of have a double whammy because we have these 
Mississippi Valley sediments shown in the darker color there, 
and these Mississippi Valley sediments also amplify the 
shaking. So we have two causes for the shaking for the same 
size earthquake here to be much greater than it would out west. 
USGS research is focusing on understanding all these effects so 
they can be mitigated cost effectively.
    One thing we're doing is we have the Advanced National 
Seismic System which provides realtime ground shaking, and it's 
focusing mainly on vulnerable urban areas, about 26 urban 
areas, including Memphis and St. Louis. There's about 35 of 
these new instruments already in place here.
    We're also making urban scale hazard maps. We've completed 
a map in Memphis, Tennessee. We have just begun one in St. 
Louis, and we're working on another one in Evansville, 
Illinois--Evansville, Indiana.
    We have community intensity maps where people, when they 
feel things from the earthquake, they can go onto the Internet, 
describe what they felt. It's very useful to us and makes them 
feel a part of the process as well, a very popular Web site.
    And, of course, we also do our earthquake notification 
systems where we let people know what has happened as it's 
happening.
    I just--now, this is very washed out, but I think I can 
still describe it. This is a scenario intensity map, shaking 
map, for just one magnitude 7.7 earthquake on that southernmost 
arm on the New Madrid Seismic Zone stretching from southeast 
Missouri into Arkansas.
    And what this is showing is the amount of shaking you would 
expect from that earthquake. And this doesn't include the other 
earthquakes that would be expected to follow. And it ranges 
from that outer green color is light damage, and the central 
color around the fault is heavy damage, significant damage even 
to well-built buildings. And you see it covers many, many 
States.
    For the other earthquakes that would be expected to follow, 
that same pattern would exist, but we'd be shifted more towards 
the north.
    I just want to mention again liquefaction and landslides. 
We tend to think of shaking, which is what that picture was 
showing, but liquefaction and landslides would be expected to 
cause failure of the bluffs, failure of Earth and levees, local 
loss of navigation on the rivers, failure of bridge supports 
and approaches over a very large region.
    Roadways would often be impassable in the low-lying areas 
along, for example, I-55, rupture of pipelines and cables 
crossing the Mississippi River and other rivers and buried 
tanks floating to the surface; many of the same effects that 
you had in New Orleans, as a matter of fact.
    And these are the kinds of things that would take the--
would cause economic loss, not just to our area but much of the 
eastern United States.
    What does such a scenario mean in terms of total losses? 
Well, this is a map done with FEMA's HAZUS program, with a 
little additional information done by the U.S. Geological 
Survey. It's a county-by-county estimation of losses.
    The lighter green color towards the outside, each of those 
counties has about 25 million or less losses. Shelby County, 
Memphis, in southwestern Tennessee, there has about $19 billion 
in losses just from one earthquake, the southwesternmost arm. 
Total losses from one quake is about 70 billion, perhaps as 
high as 77 billion. Similar analyses on the other earthquakes 
that would be expected to follow also are in the $70 billion 
apiece range.
    The last slide I want to show you is probabilities of large 
earthquakes in the next 50 years. This is important to know. By 
looking at the record of prehistoric earthquakes and smaller 
earthquakes we have now, and our understanding of how 
earthquakes work, we believe that a repeat of what happened in 
1811 and '12, magnitude 7.5 to 8, a sequence, is about 10 
percent in the next 50 years. And some people might consider 
that low. To me that seems actually quite high.
    The probability of a magnitude 6 or greater, which could 
cause damage over a local area, is between 25 and 50 percent 
over the next 50 years.
    And I believe that's the last slide I have, so thank you 
again, Mr. Chairman and Committee.
    Mr. Shuster. Thank you very much, Doctor.
    Next, Mr. Wilkinson, you may proceed.
    Mr. Wilkinson. Thank you, Mr. Chairman and Committee for 
taking the time to come to the central U.S. And look at this 
issue. My name is Jim Wilkinson, and I'm going to try to cut 
this down. I've been told we have 5 minutes instead of 10, so 
I'm going to run through this pretty quick and try to leave 
time for questions.
    First, I want to set the stage for why we're even looking 
at planning and preparedness in the central U.S., look at the 
regional approaches being taken to address this, and then 
finally conclude with some of the things that are being done 
here in the central U.S.
    First, as stated earlier, we had a very small population in 
the central U.S. Back in 1811-1812, and today that's not the 
case. We have about 11 million people at risk. Of that 11 
million, approximately 7 million fall within the small rural 
areas of the central U.S. Most people think of St. Louis and 
Memphis as the major areas, and they are as concentrations of 
population, but we still have a significant number of people 
scattered out throughout our rural smaller areas which needs to 
be looked at.
    As was pointed out just a moment ago, we have been looking 
at potential losses in the central U.S. CUSEC, along with FEMA 
and the USGS has done a loss estimation on the region looking 
at potential losses from a magnitude 7.7. This is based on a 
recommendation from USGS that that would be the magnitude we 
ought to use for our planning, and it's not the worst case.
    We then did a modified Level I, which means we added some 
additional data to the model to give us a more robust view of 
the losses. And then we did model each of three segments of the 
seismic zone. And as was pointed out, this does not reflect the 
cumulative effect of the earthquakes. These are each individual 
effects.
    There's a lengthy document that goes into all sorts of 
statistics about losses. I've just summarized it here looking 
at building, transportation, and utility losses. The totals for 
each of those three segments of the seismic zone looking at 
anywhere from 60--68 billion to 77 billion in losses on each of 
those three arms. And, again, this is available on our web 
site, and I have a hard copy to leave with you as well.
    What's driving these losses is the fact that we do have a 
lot of these unreinforced masonry structures, as mentioned 
earlier, in the central U.S. We have a high percentage of 
buildings that just weren't built for seismic consideration, 
and only recently have building codes brought in the seismic 
issue. So basically, 1992-3, seismic considerations started 
showing up in the building codes. We've got a lot of buildings 
out there that just weren't built to resist the effects of 
earthquake.
    We also haven't had a significant earthquake since 1895. We 
have had earthquakes that have caused limited damage throughout 
the region, but not on the scale that we expect to see in the 
magnitude 6 range, which means, again, we've got a very large 
inventory of vulnerable structures out there that are 
susceptible to damage.
    And there's more pressing issues, unfortunately, that it's 
not being focused on the seismic hazards, and this hearing 
today is a good step in helping to bring that awareness to the 
issue.
    So what is being done on the regional approach, regional 
hazard here in the central U.S. Is that we've taken a regional 
approach to this. Back in 1983, FEMA, along with the seven 
states that originally formed CUSEC, sat down and looked at the 
complications of dealing with a hazard that did affect all 
these States. And there wasn't a mechanism for addressing that, 
so we were formed. We're a nonprofit organization that was 
established to look at the issue and address the commonalities 
that these States share, at the same time to augment the State 
earthquake programs of each of those States.
    I have a board of directors made up of the seven Emergency 
Management Directors of their States; actually, it's eight now. 
Alabama was just added. We have nine associate States which 
surround those original States serving as a backup to those 
States.
    The board of directors sets the policy for the 
organization, determines the direction we're going, the 
priorities for addressing the hazards; and then, day to day, we 
have earthquake program managers that carry out the work, 
putting on the workshops, activities that go on in each of your 
States.
    We have a number of associations that are also umbrellaed 
under us which are very effective in helping us address the 
hazards. Our State Geologic Surveys, our State Transportation 
Task Force were all initiatives that were brought on by the 
board of directors in looking at this hazard and bringing their 
expertise to the table.
    We also have four FEMA regions that we fall in, which adds 
to that complexity of dealing with this hazard when you have 
those overlaps of different jurisdictions and how they 
communicate and they interact with each other with these 
States.
    My organization is very small. We have five staff persons, 
myself and one other work in the field, and then the rest are 
support. So, you know, it's a challenge there to address the 
needs of all those States when you have sort of a small 
organization.
    Just to give you a graphic view of where we represent, blue 
states are the founding states; the light blue are the 
associates states; and there are three other consortia that are 
supported by FEMA that cover the western part of the U.S., the 
northeastern part of the U.S.; and then there's one in the 
Seattle area that looks at just the Cascadia region.
    So pretty much every State is represented by a consortia. 
We enjoy a very strong working relationship with FEMA, and I 
think it has worked in the earthquake program and is something 
that we look forward to trying to continue.
    Just to quickly summarize, we have four basic goals that we 
operate under: public awareness, which drives all the other 
three; mitigation, multistate planning, and the application of 
research. That's our founding goals which we have stuck with. 
It gives us a balanced approach to addressing this hazard, 
where we're not looking at just one area but all areas.
    The States have adopted these same areas for their 
earthquake programs. I'm not going to read these to you, but it 
gives you some idea in each of those program areas what we are 
engaged in in working with the States.
    And finally, some of the current activities we're involved 
with. This is not a complete list, obviously. We have 
earthquake program managers workshop coming up in which all of 
your State earthquake program managers are getting together and 
looking at the regional State issues. We've got training that's 
been going on. We were in Kentucky two weeks ago doing the ATC 
20. We've been in Missouri quite a bit here lately, Arkansas, 
Kentucky, doing earthquake town hall meetings. Earthquake 
awareness week just concluded for these States.
    So we're very active, and as you're about to hear, we're 
also engaged in catastrophic planning that's about to kick off 
with FEMA and the eight States. And we just wrapped up a week 
conference in Memphis looking at the Spills of National 
Significance exercise which will focus on the hazard and 
looking at testing these plans we've been working on currently.
    Basically, we can't do this alone. It's a partnership 
approach. We have to have your help. We have to have the help 
of a private sector, all the State agencies, local and Federal, 
to make this work. It's a huge undertaking in addressing this 
hazard in the central U.S. The good news is we know what we 
need to do. It's prioritizing what we need to do and setting a 
course. Thank you.
    Mr. Shuster. Thank you very much.
     Mr. Pawlowski.
    Mr. Pawlowski. Good morning, Mr. Chairman and members of 
the committee. On behalf of the Federal Emergency Management 
Agency and the Department of Homeland Security, I would like to 
thank you very much for the opportunity to brief you on the 
catastrophic disaster readiness program for the New Madrid 
Seismic Zone.
    My name is Mike Pawlowski. I'm the Instant Response Section 
Chief within the operations branch of the response division of 
FEMA.
    We have a significant concern that there is a potential for 
a catastrophic earthquake, equivalent to those in the 1800's, 
centered on the New Madrid zone. I would like to begin by 
stating that DHS/FEMA has taken the lead on the Catastrophic 
Disaster Readiness Program for the New Madrid Seismic Zone.
    This project is a cooperative multiFederal agency, 
multiState and local government, private sector and tribal 
nation effort that incorporates examination of the effects on 
the critical infrastructure.
    This is a large-scale project involving the synchronization 
of efforts of a number of entities and their activities. FEMA's 
goal is to apply the results of the Catastrophic Disaster 
Readiness Program for the New Madrid Seismic Zone to earthquake 
planning efforts in other parts of the country.
    The response division at FEMA is addressing and 
coordinating interagency and intergovernmental efforts in such 
areas as command and control, search and rescue, evacuation, 
emergency sheltering, hosting, transportation, address special 
needs populations, temporary medical control--medical care, 
access control, and reentry to impacted areas, commodity 
prestaging and distribution, donations and volunteer 
management, and working on other identified regional, State, 
local, or tribal nation concerns.
    FEMA's Recovery Division is developing guidelines that 
would be used to assist host communities in planning for 
accommodating large numbers of the evacuees, mass care, 
temporary housing, and other long-term issues.
    Obviously, in developing those guidelines, we will apply 
the lessons that we have learned over the last year from 
Hurricane Katrina and looking at the 125 recommendations made 
by the White House yesterday.
    Our approach and assumption for this readiness effort is 
focused on a no-notice event, an earthquake, but the results of 
this initiative can also be applied to a no-notice terrorism 
event.
    Our planning venues will present a wide range of 
intelligence sharing, commodity prestaging, resource 
deployment, special needs evacuation, transportation and 
routing, and address the critical infrastructure.
    I'd like to point out that this would be a cooperative 
business, industry, and government partnership with many 
players involved from the Federal, State, local, tribal nation, 
and the private sector.
    We recognize that there have already been some individual 
initiatives that have taken--that have been involved in doing 
prior planning in the New Madrid zone. For example, CUSEC has 
been involved in prior planning, the Spills of National 
Significance 2007 exercise is now ongoing as a cooperative 
interagency effort with FEMA, the U.S. Coast Guard.
    The National Infrastructure Simulation and Analysis Center 
will be involved in this project as well as the Environmental 
Protection Agency, U.S. Department of Transportation, the U.S. 
Army Corps of Engineers, the Department of Defense NORTHCOM, 
Fifth Army North, and the American Petroleum Institute.
    Other partners, such as the Department of Homeland Security 
Preparedness Directorate, are also going to be involved as we 
move forward. To assure overall coordination of the 
Catastrophic Readiness Program, an interagency, 
intergovernmental steering committee will be formed and is 
expected to be in place by late February.
    A project of this magnitude requires synchronization of 
activities across government, across regions, across State and 
local government and tribal nations.
    Our requirements to manage this project is to establish a 
Web portal for maintaining all the active in-process planning 
and information sharing. We will utilize the Homeland Security 
Information Network to accomplish this. The uniqueness of the 
New Madrid Seismic Zone poses many challenges for the 
Catastrophic Disaster Readiness Project.
    We initially started coordinating this project with the 
States at a CUSEC, at the Central United States Earthquake 
Consortium meeting in December of last year in Gatlinburg, 
Tennessee. We have initiated planning with our regional 
interagency steering committee in February of this year. The 
project, as you know, involves eight States, four regions. A 
lot of synchronization, a lot of coordination will be required.
    Our planning will examine extreme weather conditions such 
as flooding, snow and ice that could exacerbate the problems of 
the affected population. There is a variety of potential 
economic impacts from an event in the New Madrid Seismic Zone 
that require a strong business, industry, and government 
partnership which includes the critical infrastructure.
    We know there is a historic precedent for such an event. If 
you were to analyze just a 10-day disruption of the local 
economies of the areas structurally damaged by a 1985--by an 
1895 earthquake, due to the fallen power lines alone, the 
impact would be $50 billion but would not be centered 
specifically in the New Madrid region. Two thousand--two-thirds 
of that impact would affect the infrastructure across the 
country. Commodity flows, pipeline, rail, highways, barges 
would be significantly affected.
    How do we go--how do we expect to go about on this project? 
We have already coordinated with the States and CUSEC with a 
strategy to initiate a series of workshops within the area to 
do the planning that's required.
    We expect to conduct workshops in two urban areas and one 
rural area. The two rural urban areas identified would be St. 
Louis and Memphis. The rural area would be Cairo, Illinois; 
Wickliffe, Kentucky; and Charleston, Missouri.
    Potential impacts to be addressed at these workshops 
include command and control, saving lives, search and rescue, 
temporary medical care, access control reentry, business, 
industry, and government partnerships, private sector 
coordination, and the critical infrastructure.
    We will conduct an overall assessment of the earthquake 
impact in the area, and we will address the social 
vulnerability, identify the social and economic consequences of 
both the short-term and long-term effect on the impacted area.
    We have established a schedule for completing this 
Catastrophic Disaster Readiness Project. In the first quarter 
fiscal year 2006, we already established initial coordination 
on this project. By the end of this quarter, we will have 
established our steering committee, and by the third quarter of 
2006, we will have established the workshop design team and 
specific scenarios and objectives to be accomplished in each of 
the workshops. In the fourth quarter of 2006, we will conduct 
preworkshop meetings and initiate functional workshops at the 
city level.
    We will expect to have a complete regionwide coordinated 
response plan that integrates the effects of all the regions, 
States, all the Federal agencies to be in place by fiscal year 
2007.
    We will participate with the Spills of National 
Significance Exercise as part of this effort to assure that we 
have strong coordination among all the partners in this effort, 
and we will be able to address any other areas for improvement 
that may be identified as a result of conducting this exercise.
    I will be glad to entertain questions at this point.
    Mr. Shuster. Thank you very much, Mr. Pawlowski.
    I'm going to recognize Mr. Carnahan first for questions, 
since he has to depart. Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and thank you to the 
panel. I have really two brief questions. The first I want to 
ask, and I'll ask of the panel. I understand there's a historic 
cycle of how these earthquakes have happened in this region of 
the country, but can you talk to us a little bit about the 
science, the current science of monitoring and prediction of 
these cycles and what the better monitoring has done in terms 
of activity that might signal a quake coming?
    Mr. Schweig. Yeah. The U.S. Geological Survey working with 
various universities in the region, particularly St. Louis 
University and the University of Memphis have been supporting a 
seismic network in this region for quite a few years, actually, 
since the '70's, and that network has done a number of things 
for us.
    First of all, it helps us locate much more exactly where 
the earthquakes have occurred and are likely to occur. We 
couldn't even see this pattern of earthquakes until the 
instruments were in.
    The other thing, and I think this is one of the most 
critical things for preparedness and response, these 
instruments that we have in the ground are--they allow us, when 
we have a moderate earthquake in the region, they allow us to 
understand how buildings will shake in the case of a large 
earthquake.
    So without these instruments, we would not have the ability 
to appropriately build buildings in the region, cost 
effectively build buildings in the region to withstand larger 
earthquakes.
    Now, we're not using--although we'd all love to be able to 
predict earthquakes, that's not what we're generally using 
those instruments for. We're using the instruments to assess 
the hazard so that we can cost effectively prepare for 
earthquakes.
    We consider right now, forecasting the likelihood of 
earthquakes and what they're likely to do, a much better use of 
funds than actually trying to predict them, although, of 
course, there's always background research going on, and we'd 
all love to be able to predict earthquakes.
    Mr. Carnahan. Thank you. The other question I have is to 
the extent that you have worked with architects, engineers, and 
scientists and groups like the Transportation Infrastructure 
Security Partnership in developing industry standards for new 
buildings or retrofitting buildings and the type of incentives 
that could be put in place to help those be implemented in a 
better way.
    Mr. Wilkinson. Well, we do work very closely with local and 
State building code officials in trying to get the improvement 
of the building codes. It's a very difficult situation because 
you're going--in this area, as I pointed out, we didn't have 
seismic codes until the early '90's. And, so, when you're going 
from something that's nothing to something, you've ultimately 
got cost issues involved with that.
    The Memphis Shelby County area right now is dealing with 
that very issue, western Kentucky. So what we're trying to do 
is to generate these improvements in the codes so that we are 
reducing our vulnerability but at the same time trying to 
factor in the economic aspects of community development in the 
region and at the city and county levels so that, you know, 
we're not going backwards.
    We're improving the situation but still helping the 
community be healthy economically as we address those very key 
issues about the cost of this because, as was pointed out in 
the science part of this presentation, there are some 
comparable measures to the California threat.
    And whether or not our code should reflect a comparable 
code to what California is under or not is a debate that's 
going on right now. And we work very closely to try to address 
both sides of that issue because, you know, from a preparedness 
side, which I represent, you know, obviously, we're looking for 
the strongest, safest buildings we could have, but at the same 
time you've got to factor in the economics of all this.
    Mr. Carnahan. Thank you very much. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Carnahan. Thanks for having us 
here today, and also we look forward to working with you on 
that situation you have out here in Missouri, and we'll be in 
touch. Thank you for coming.
    I'd like to also now recognize Mrs. Emerson.
    Mrs. Emerson. Thank you, Mr. Chairman. I've got several 
questions, but Dr. Schweig, just let me ask you one question. 
It's a science question, too, just to follow up.
    When you talk about the tendency for seismic events to 
occur in sequences, how does that--I mean, just because I don't 
understand it very well--how does this tendency complicate 
potential response and relief efforts in the region? And then a 
scientific question is, are those sequences likely to occur 
along the same epicenter?
    Mr. Schweig. Maybe I'll answer the latter part first 
because it's a science question. The--we're not really sure 
about whether they tend to always happen along the same parts 
of the New Madrid Seismic Zone, but the science seems to 
suggest they do.
    By looking at the pattern of these prehistoric sand blows, 
we actually can see that they seem to line up in clusters in 
1450 and 900 AD that are almost identical to what we see from 
1811 and '12. That would suggest that these three arms of the 
seismic zone, that we really didn't have time to talk about, 
probably each go off, maybe not in the same order. We really 
can't tell that. But they each seem to go off each time.
    And maybe Jim might better address the issue of response, 
but the things that are obvious to me are that if you know or 
if you strongly suspect that additional large events are going 
to be happening over the next days to weeks, that's going to 
strongly affect the kinds of structures that you're going to 
put people into, where you want to take them, where you want to 
evacuate them to, etc. I don't know if you have anything 
additional to say about that.
    Mrs. Emerson. OK.
    Dr. Pawlowski, one of the shortcomings of Hurricane Pam was 
that the workshops had not been translated into operational 
procedures. How are you all going to make sure the planning 
translates into increased readiness and capabilities this time 
around.
    Mr. Pawlowski. Well, our objective is to review all the 
State plans, all the local plans to make sure there is 
synchronization across the board. We will have the opportunity 
to exercise them.
    We will make sure that that, that those plans are 
coordinated with not only the local communities, the State 
communities, regionwide amongst the Federal agencies who would 
have a role to play, and all the external Federal agencies that 
would come out--come in providing assistance.
    The procedures will have to be exercised, and through those 
exercises, we will be able to identify what are the strengths 
and what are the areas that need to be improved upon.
    And we will use the reports that have been--the after-
action reports from Katrina to guide us in making sure that we 
bring the best of the recommendations to help us in that 
matter.
    Mrs. Emerson. Will this have been the first earthquake 
exercise that FEMA has ever been involved in.
    Mr. Pawlowski. We've done catastrophic--we had an 
earthquake that was called Catastrophic 97, I believe, which we 
were involved in. But this is a significantly larger effort 
because you're talking about an effort that's going to involve 
the eight States, the four regions coordinating, and also the 
other Federal agencies from the top down.
    Mrs. Emerson. OK. I do have a follow-up question to that 
that I want to ask. Is that all right, Mr. Chairman?
    Mr. Shuster. Sure.
    Mrs. Emerson. And then I'm going to ask our State director 
the question as well. In preparing for these exercises and for 
the workshops, are you going to be requiring, if you will, 
major assessments, to have major assessments done of where you 
might place emergency equipment, and, like, you talked about 
commodity prestaging and that sort of thing, in areas that can 
withstand and/or in structures that can withstand, let's say, a 
Level 7 earthquake? You know, how do you determine all of that?
    Mr. Pawlowski. That's part of the planning that we will be 
doing.
    Mrs. Emerson. OK.
    Mr. Pawlowski. But we will also be looking at 
transportation requirements. If the infrastructure is 
disrupted--this week we met with a special transportation 
working group that's looking at the roadways through the 
system. We will be addressing the airports.
    If you have roadways and you have bridges, which ones have 
been seismic--have been taken--have taken the seismic design 
into account so that they will be able to survive and provide 
you support for flowing commodities into and out of the region.
    Mrs. Emerson. OK. But just for an example, say I've got--
I'm in a small town. Let's say I'm in Sikeston, Missouri, for 
example. That's a little north of where Charleston and where 
you're going to have one of the workshops. What happens if, you 
know, my public safety department, which is police and fire, 
and they have a brick building or a cinder block building in 
which all of, you know, all of our emergency, our ambulances 
and all of our emergency response vehicles are housed, are you 
going to be--are you going down to that detail in these 
assessments so that we would know that that is not a good 
prestaging area, for example, if it's in a cinder block 
building because we wouldn't be able to get at those emergency 
vehicles to get people out of their homes, etc.?
    Mr. Pawlowski. That would be our objective because we want 
to make sure that we have command and control and continuity of 
government, continuity of services.
    Mrs. Emerson. Right. So you will know down to the last 
building which, you know, which can or cannot be prepositioned 
with equipment or commodities or the like. Is that correct.
    Mr. Pawlowski. Our objective is to make sure we have 
communication with every community. Part of our problems with 
Katrina was losing communications capabilities and having a 
command and control infrastructure.
    So our objective is to make sure when we look down to the 
lowest level as a result of this comprehensive planning effort 
that we do have a capability to communicate; that there is 
command and control down at the local level; that there is a 
facility that, either the facility there or some alternate 
facility, that local government can operate from.
    Mrs. Emerson. OK. I wasn't specifically talking about 
communications. I was talking about prestaging, whether it's 
water, commodities, whether it's ambulances, school buses, 
whatever you're going to do to get people out. You will be 
assessing those buildings, and that's the infrastructure, if 
you will, of where they would be housed.
    Mr. Pawlowski. Yes. In terms of temporary sheltering of 
population and commodities that you're addressing.
    Mrs. Emerson. And equipment to get people out and the 
ambulances and the like. So we will know all of that down to 
the local----
    Mr. Pawlowski. That is our objective.
    Mrs. Emerson. OK. I want to come back and ask a follow-up 
question. How are you going to make certain that all happens, 
and, you know, what is the accountability requirement that you 
will demand? Jim, do you want to answer that.
    Mr. Wilkinson. Well, I'd like to add to that. On the 
mitigation side, which is a requirement at the State and local 
level, they are identifying those vulnerable areas in all those 
communities and, a part of the mitigation plan, to reduce that 
risk.
    So there is a planning effort in all the communities to 
look at those structures and determine which ones are 
vulnerable so that mitigation dollars can come in to strengthen 
those buildings that may be vulnerable. So that detailed look 
is taking place, but it's on the mitigation side, not on the 
response preparedness side.
    I guess the objective here is to make sure that mitigation 
and preparedness are talking and making sure the planning 
efforts are coming together like they should be, but that is 
happening through the mitigation directors.
    Mrs. Emerson. I don't think I'm articulating my question 
very well. Forgive me. I guess when you prestage emergency 
response, whether it's food, whether it's ambulances, whether 
it's buses to move people, whatever, is, obviously--well, I 
would hope that you take into consideration the place where you 
stage is not a vulnerable place, if you will. That's what I'm 
trying to say.
    But, I guess, is there going to be one agency designated 
that is going to know all of this information, one data base of 
information so that everybody can talk to each other, or are we 
going to have split responsibilities in such a way that we 
can't have--can't know all of the things that we need to know 
to do in just one simple database?
    Mr. Wilkinson. Well, I can tell you for the State of 
Tennessee, and I think in talking with Director Reynolds last 
night about Missouri, they are looking at specific sites to 
predeploy and store resources.
    In Tennessee's case, they're looking as forward as they can 
get to the area before they start getting into the areas 
suspected to be impacted. So they are looking at, I guess what 
you're getting at, is a site in which things are predeployed, 
stationed, and ready to go in the event we have an earthquake. 
Again, I can't speak for the other States at this point, but I 
do know those two States are looking into that.
    Mrs. Emerson. Thanks. Thanks, Mr. Chairman.
    Mr. Pawlowski. I'd like to add to that by stating this is a 
cooperative local, State, and Federal effort. There will be 
local prestaging, State prestaging. The State will do its own 
planning in terms of what it needs to do, and we will be 
looking at what would be the requirement to support the State 
in that effort. So it has to be a coordinated look at sharing 
information, databases for logistical support.
    Our objective is to get down to the detail. It's dependent 
upon how close we work with the States, and our objective is to 
work very closely to make sure that there is that connection 
from the bottom up.
    Mrs. Emerson. OK.
    Mr. Pawlowski. And we will be using the Homeland Security 
Information Network as the central portal where everybody will 
have access to the information, the plans, the locations for 
logistical support, prestaging of supplies and equipment.
    It will be a significant coordination effort to make sure 
that that is managed properly, and we decided the best way to 
do that is using the Department of Homeland Security 
Information--Homeland Security Information Network portal set 
up for catastrophic disaster planning.
    Mrs. Emerson. So everybody will know the same thing.
    Mr. Pawlowski. Correct.
    Mrs. Emerson. Have you all determined yet whether, if there 
is a--is there a minimal or a maximum level? For example, if we 
have a 7.5 on the Richter scale earthquake, would that 
automatically prompt military involvement? Are we going to, you 
know, decide that because I noticed that, you know, yesterday 
Ms. Townsend said that, in response to Hurricane Katrina at 
certain levels we may have to have DOD take responsibility. 
Have you all made any kind of determinations with regard to 
that.
    Mr. Pawlowski. We are doing joint planning with NORTHCOM. 
NORTHCOM is a partner to this effort. They're participating in 
SONS '07. This bill is of National Significance, the '07 
exercise, so this is a cooperative effort.
    We will be looking now as we review the historical basis 
for--we will be coming up with different scenarios that need to 
be looked at from the standpoint of planning, reviewing the 
State plans, the local plans, the national response plans, what 
the responsibilities are of the Federal agencies, and how we 
would provide coordinated assistance in this effort. There is 
going to be an involvement in the military, yes.
    Mrs. Emerson. But it may well be after you've done all 
these that you would decide that, let's say we have a 7.5 or 8 
Richter scale earthquake, that we might just call in the 
military immediately. I mean, is that a possible scenario? I'm 
not saying that is. Is that something you all would consider if 
everything else is, you know----
    Mr. Pawlowski. The Governor is responsible for his or her 
State, and if the local community determines by a request that 
they need assistance, they go to the State, and then the State, 
through the Governor, would determine what type of assistance 
the Governor wants to bring in under a Presidential disaster 
declaration.
    Mrs. Emerson. Thank you. Thanks, Mr. Chairman.
    Mr. Shuster. Thank you. And my question, I think, follows 
up to Ms. Emerson's. I think you get an answer to what her 
question is if you held the exercise that she's requested. We 
had a Hurricane Pam exercise. We pretty much knew in New 
Orleans what was going to happen and probably what would be 
needed. We didn't learn the lesson from that exercise.
    So my question is, she's requested an exercise here in the 
New Madrid region. What's the status of her request? Are we 
moving forward with doing an exercise? How far away are we from 
doing something?
    Mr. Pawlowski. Currently, we're coordinating, all the 
planning that we're doing will lead up to the Spills of 
National Significance exercise, but----
    Mr. Shuster. When will that be, approximately?
    Mr. Pawlowski. That's in 2007, June of 2007. But in the 
meantime, we will be looking at all the individual plans. We've 
just initiated this effort.
    Mr. Shuster. Right. Exactly. But I think that gets to the 
core of what she's asking. If you have that exercise, you're 
going to be able to see that, "Oh, my goodness the State is 
going to be--not going to be overwhelmed where it's going to 
take a DOD response. It's going to take, you know, just other 
States coming in." Go ahead, Mr. Wilkinson.
    Mr. Wilkinson. We are engaged in exercises on a smaller 
scale between now and '07 because each of these various work 
groups are looking at different parts, whether it's 
transportation, sheltering, evacuation, and testing that in a 
small way leading up to this monumental exercise which will 
involve, you know, all these four regions, the States, Federal 
Government.
    So, you know, there's a big undertaking to pull something 
like that together. But that's not to say that other things 
aren't going on between now and then.
    Mr. Shuster. Right. Yesterday in Los Angeles, Dr. Jones 
from the USGS said that a major earthquake in the Los Angeles, 
southern California, would cut off people's ability to drive 
out of that area unlike in North Ridge, I guess, when the 
earthquake was in '93 or '94. People drove 5 minutes, 10 
minutes, and they could get water and things they needed. But 
southern California, it would be completely cut off, so you'd 
have millions of people trapped there.
    A significant earthquake in this region, what would the 
scenario be? Would you cut people off from getting out, or 
would they be able to get out of the regions?
    Mr. Schweig. I think it's still necessary to do some more 
assessments on that. But I think even right now we know that 
some areas will be cut off. There are only a couple of the 
bridges crossing the Mississippi River. The highway bridges are 
prepared for the large catastrophic earthquake we're talking 
about. I believe most of the railroad bridges are not.
    And then there's a problem. We were looking at a study a 
couple of weeks ago here that many bridges have been built 
that, smaller bridges with overpasses, built to modern 
standards and may themselves survive; but the approaches to 
those bridges may not survive. So they'll stand up, but you 
won't be able to get to them.
    So I think that's a major issue in this part of the country 
that needs to be assessed further.
    Mr. Shuster. In southern California, the San Andreas fault, 
virtually every highway, pipeline, rail line goes across it. So 
if you get the big one out there, there's only one way out, and 
that's north of Los Angeles.
    The scenario here would be, I saw you have different sort 
of regions, different scenarios that would seem to me, and this 
is a question, but it would seem to me that you're not going to 
be cut off as you would in southern California. Is that----
    Mr. Schweig. Well, I think there's a good chance that you 
would be cut off in the sense that, at least in isolated 
communities, and I'm not saying anything about how big those 
communities are. But it's certainly possible that approaches in 
all directions to certain communities could be down. You can 
think of communities, you know, in southern Illinois that have 
the Ohio River on one side and the Mississippi on the other and 
then just one access out after that.
    There's a lot of situations like that throughout the region 
that are somewhat analogous to what you have in Los Angeles.
    Mr. Shuster. Do you have an estimate of how many people you 
might have to support for three weeks in the region?
    Mr. Schweig. I don't, no.
    Mr. Shuster. Anybody? Mr. Wilkinson, you talked about 
public awareness, and I think that that was a problem in 
Katrina. A lot of people didn't heed the warnings. They said, 
"Oh, we've been through this before. It's not that bad."
    What do you think public awareness is concerning the New 
Madrid fault line and the potential? Are people educated? Are 
they well aware of it, or is it still a long ways to go?
    Mr. Wilkinson. Well, I think they're anecdotally where, you 
know, the 1811-1812, they talk about the river running 
backwards and some of the things that are, you know, sort of 
grandiose. But as far as the details and expectations of what 
would happen, I don't think they're aware as what they need to 
be.
    We've been holding these earthquake town hall meetings, and 
we try to get a sense of the concerns that communities have 
with respect to earthquakes, and it's clear that more needs to 
be done you know, from our elected officials all the way down 
in understanding what we're up against.
    You know, we've got an active program with our--we have a 
working group with our public information officers to help get 
information out to our schools, to our communities, working 
through our State earthquake program managers.
    It's--as I mentioned in my presentation, we have these four 
goal areas that drive my organization. My board of Directors 
made public outreach and education our number one goal because 
that's really what's going to help improve loss reduction and 
preparedness if we really understand what we're up against.
    Mr. Shuster. Is the media engaged, local media here, do you 
think?
    Mr. Wilkinson. You know, I hate to say it, but hazards 
compete with each other, and the earthquake program nationally, 
as well as in the region, has not been a priority. It's been 
low. After Katrina, I had media that I've never seen before 
showing up on my doorstep right there in the Memphis area where 
I'm headquartered saying, "Well, we didn't even know you were 
here." I was thankful they found us. They seeked us out.
    So there's a switch. There's a lot more focus happening and 
sort of perpetuating itself. I'm seeing a lot more interest 
from all sectors of society.
    Mr. Shuster. Mr. Pawlowski, from FEMA's viewpoint, I think 
that New Orleans was the number one fear we had at FEMA on the 
national level in the Category 5, 4-5 hurricane, would 
overflow, that the levees wouldn't hold and would flood the 
city. Where does the New Madrid sort of fall on that scale of 
priorities, if you will?
    Mr. Pawlowski. New Madrid is at the top right now that 
we're concentrating our Catastrophic Disaster Readiness Program 
on New Madrid. That is our primary objective. We have concerns 
because of the fact of expectations. How fast can we provide 
assistance to meet the lifesaving requirements and property 
saving requirements for the public?
    Realistically, an event such as New Madrid, you are going 
to have areas that are isolated, to address your concern. And 
how fast can we get in based upon the critical infrastructure 
being immobilized to move, to take care of special needs, 
medical evacuation, temporary housing and shelter of the people 
in the area until we can provide additional assistance?
    It's going to be a monumental challenge. That's why we are 
working at it on a coordinated basis to bring as many partners 
together to address this, not just the government, but the 
private sector as well as local government, State government, 
and the Federal Government in a partnership.
    Mr. Shuster. One last question. The Mississippi River. If 
we have a, say, 7.7, 8 earthquake. The Mississippi is important 
to the national economy. Is there going to be a period of time 
that you're not going to be able to navigate on the 
Mississippi, and how long do your models predict that to be?
    Mr. Wilkinson. Well, I can answer part of that, and then 
Buddy Schweig can answer the rest of it. You know, as he 
pointed out, a lot of the bridges and infrastructure that cross 
the river weren't built for seismic. They're going to most 
likely be in the river.
    Landsliding issues putting a lot of debris, trees, 
vegetation into the river, that's going to cause it to be 
unnavigable.
    Charleston, Missouri; Wickliffe, Kentucky; and Cairo that 
we're looking at in the rural area, that was picked for two 
reasons. One, because they're rural, they have unique 
situations that need to be looked at in dealing with rural 
communities.
    Secondly, it's the crossroads of the Ohio and the 
Mississippi Rivers. You've got major interstate systems going 
through there. We've got rail, industry. Everything that could 
go wrong as far as infrastructure is right there. So we're 
really trying to get a sense of what that impact would be 
because, from the commerce point of view, every day is millions 
of dollars lost, whether you're talking about the trucking, 
waterway, air.
    And trying to reroute traffic or, in the case of river 
traffic, you don't reroute it. It's stuck. What can we do to 
address that? I mean, we don't expect things to move for some 
time because you don't just pick a bridge up out of the river. 
So it could be, you know, months, years.
    Mr. Shuster. And is it debris is going to be the main 
reason? I saw some of the those photographs where the banks 
spill over, and so you've only got very shallow water. Is that 
part of the problem?
    Mr. Wilkinson. Debris is part of it, including bridges and 
infrastructure, pipelines that are in there. A big part of the 
exercise in '07 is looking at Spills of National Significance, 
and we've got major pipelines carrying oil and gas under the 
rivers. You know, there's no reason to think that if we rupture 
those that, literally, the rivers could be on fire.
    So, you know, how we deal with those sorts of things are 
being folded into the scenario in the catastrophic planning and 
in trying to get a better picture of how we address this.
    Mrs. Emerson. Mr. Chairman, may I also respond to you if I 
could? And I do want to say that the bridge between Charleston, 
Wickliffe, that area would not be--would be gone. It's probably 
gone now, but we can't afford any new bridges across the 
Mississippi at least right now, I guess.
    But just so you know, we have I70, I57, I40 that, in that 
whole area of very, very major highways. We have one 
seismically-designed bridge between St. Louis and Memphis. 
That's our new Bill Emerson bridge in Cape Girardeau, Missouri.
    And, you know, obviously, a real question is what other 
kind of bridge would handle a 7 event other than the Emerson 
bridge, which we know will.
    We also have six major pipelines from Houston and the gulf 
coast carrying fuel to the entire Midwest. River transportation 
would, I would assume, and I think you all could probably 
attest to this, that river transportation would be disrupted 
for weeks if not months because the bridges are going to be 
down. You've got to haul the bridges out. Obviously, you've got 
your river banks falling.
    I mean, we had river barges--well, we had the barge 
industry and transportation up the Mississippi, or down the 
Mississippi for us, from New Orleans totally disrupted for 
several days after Hurricane Katrina, which had a huge impact 
negative ripple effect on our agricultural commodities, I mean, 
our agricultural economy because we couldn't send our recently 
harvested corn and other grains down the river. And, you know, 
just think of that was just, I mean, 5 to 8 days.
    So I guess I just want to be certain that our study 
exercise is going to take all of this stuff into account. And, 
you know, the Missouri River, the Mississippi River, I mean, 
it's just really very critical to the economy of our region, 
and, really, of the whole country.
    Mr. Pawlowski. We're going to be looking at different 
scenarios, and we are going to be looking at the total 
infrastructure, as I said. And the points that you brought out 
are some of the, one of many points that we will be looking at 
and different concerns because whatever happens here will not 
only have an impact here, it will affect the whole nation. And 
that is our concern. That is why this is a priority planning 
event for us.
    Mrs. Emerson. Thank you.
    Mr. Shuster. Thank you three gentlemen for appearing before 
us today. You certainly have shed light on the situation, and 
we need to make sure that we're--and I have been and need to 
urge other members of Congress to get out and talk to the folks 
in the regions around the country to learn about the various 
disasters that could occur.
    Prior to my chairmanship of this committee, I didn't 
realize there was such a thing as the New Madrid fault line and 
the seriousness of it. So it's something that we need to--
obviously, public awareness here is critical, but across the 
Nation.
    So, again, thank you very much. The committee now calls 
before it the second panel for today's hearing, which is 
comprised of two officials. We'll take just a short, probably 
less than five-minute break so you guys get situated. So the 
committee stands in recess.
    [Recess.]
    Mr. Shuster. Committee will come to order. We'll have our 
second panel now today. Today joining us is Colonel Ron 
Reynolds, Director of the Missouri State Emergency Management 
Agency, and Mr. William Burke, Director of Illinois Emergency 
Management Agency and Chairman of the Central United States 
Earthquake Consortium.
    Since your written testimony has been made part of the 
record, the subcommittee will request that all witnesses limit 
their oral testimony to 5 minutes. There will be time for 
questions after you have given your prepared remarks.

    TESTIMONY OF RONALD REYNOLDS, DIRECTOR, MISSOURI STATE 
 EMERGENCY MANAGEMENT AGENCY; AND WILLIAM C. BURKE, DIRECTOR, 
              ILLINOIS EMERGENCY MANAGEMENT AGENCY

    Mr. Shuster. I want to start off, probably the way I'll end 
up today is stressing the importance of having folks like you 
come before your Members of Congress, whether they're Senate or 
the House, to educate them on your needs.
    Right now in Washington there's going to be a great debate, 
and it looks like the administration, the White House, and the 
Capitol are going to be different sides of the issue as to 
where we go after Katrina with FEMA and DHS. And it's 
absolutely critical that State and local voice is heard in 
Washington, and you need to engage your Members of Congress. If 
you don't, if something comes out of it that you're not pleased 
with, if you're not engaged, you can only blame yourselves 
because I think that as we move forward, you're the largest end 
user customer of FEMA, and we need to hear from you. And I have 
some concern that the States are not being heard as they should 
be as we go through this debate.
    So, again, I'll encourage you to talk to your Senators, 
your Congressmen, Congresswomen around, around your States to 
educate them because Members of Congress, there are--the way 
Congress is set up, we sort of become knowledgeable in 
different areas. There are not many members of Congress that 
understand emergency management.
    And prior to me becoming Chairman of the subcommittee, I 
had little knowledge, so I've learned a lot. But I've learned 
it from the folks that are out in field, the first responders 
at the local level and the State emergency management people.
    So if I'm going on and on about this, it's that important 
that you two gentleman understand that as we go forward.
    So first, Colonel Reynolds, would you proceed?
    Mr. Reynolds. Can I defer to my colleague from Illinois?
    Mr. Shuster. Sure. Absolutely. Is it Burke or Burke?
    Mr. Burke. It's Burke.
    Mr. Shuster. Burke, OK. All right, Mr. Burke.
    Mr. Burke. Thank you, Mr. Chairman, members of the 
Committee. It's really my pleasure to come before you and talk 
about emergency management in Illinois and especially about the 
subject of the New Madrid earthquake fault. Maybe in questions, 
but perhaps in my remarks, also, I'll make some comments about 
the issue of DHS/FEMA, not from the standpoint of FEMA being 
standalone or should it be in DHS, but the importance that, 
that based on its missions, of course, that it has the proper 
structure and also the proper interoperability with the whole 
overall DHS structure, and that includes the military since 
there was mention of the military stepping in.
    Before I get into kind of how we're approaching things in 
Illinois, I guess I'll continue down that track that the 
military is a great organization. I, too, am a retired Colonel, 
lieutenant Colonel in the military, but I, for one, would tell 
you that, unless there is the proper structures in place at the 
local and State level, that the military can't come in and 
start from zero and be a rescuer.
    The military needs to be considered a resource that's 
available at the Federal level just like any other resource 
that's available and come in and become part of the unified 
command structure within the State and understand what has 
occurred and what are the priorities that the State wants to 
address and utilize their resource and expertise within that 
framework.
    And in order to do that, they have to be an integral part 
of the unified command at the Federal level, whether that 
unified command is within the Homeland Security operations 
center or one of the other centers.
    But I think one of the things that the members of Congress 
and the Senate need to be impressing upon DHS and the whole 
Federal structure is that, while their specific expertise can 
emanate from a particular operation center, that there has to 
be liaisons or the decision-makers in one central location so 
that the information that is being synthesized and the 
operational and logistic needs that they're going to be 
meeting, they're being met from a standpoint of, you know, 
informed knowledge; and that people are not trying to second-
guess, and they understand what are the barriers or the 
problems that might occur based on what some other agency that 
has to assist them in that process and the coordination and 
also the linkage down to the States on what's going to occur.
    I'll move on. In Illinois, we're taking the issue of 
earthquake preparedness very serious. While we, like many 
States, have a all-hazard approach, we have decided that 
earthquake has some unique aspects, and so I do have an 
earthquake preparedness officer that's working specifically 
with the, about 37 counties in southern Illinois on the issue 
of earthquake and looking at things like communication, 
transportation issue, and mass care.
    Fortunately for us in Illinois, kind of how we're 
structured is emergency management is not just my agency. We 
have a system, is the way I try to describe it, and it 
includes, you could say it's our Homeland Security System or 
you could say it's our emergency management system. Because we 
feel that we are getting two for one.
    While we have utilized the Homeland Security dollars within 
the guidelines established by DHS, what we have done is create 
a capability around a strategy for the State of Illinois.
    And since we have the city of Chicago, and that being a 
prime focal point for terrorism, what we've done is we have 
created a capability that what the city of Chicago has, in a 
smaller basis, that same capability is available in any locale 
within the State of Illinois.
    We created 19 regions where--and we created, excuse me, not 
only interoperability, but mutual aid across all the First 
Responder disciplines. We have mutual aid with about 40,000 
firemen, all the fire departments. We have mutual aid with 
about 30,000 law enforcement. We have all the public health 
agencies in the State with a mutual aid agreement, and we have 
all of the certified emergency management organizations in a 
mutual aid agreement. And then we have an independent Illinois 
Medical Emergency Response System, 1,200 doctors and nurses 
that are available.
    When we declare a State disaster, while they have 
agreements, community, that are outside of the State, if we 
declare a State disaster, all these assets, if we ask for them, 
become a State asset to help us address a disaster.
    We know it works. We sent 900 firemen and 105 pieces of 
equipment to Louisiana, 300 police officers. Fifty of our 
medical emergency people ran a field hospital in the Maravich 
Center and treated five, six thousand people. And that same 
system is what we would utilize within Illinois.
    We have--because communication is so important, we have 
communication, mobile communication equipment that's satellite 
capable but would also allow for temporary cell phone and data 
transmission that we're putting in 13 different locations 
around the State, and then also 10 command vehicles to help us 
have command and control.
    Next month I'm having my earthquake planner. We had an 
earthquake conference last year, and we had, in 2003 with 
NORTHCOM, an earthquake tabletop. But next month in my Region 8 
in southern Illinois, on March 2nd and 3rd, we're going to do 
an earthquake conference; and then in Region 11 on the 7th and 
8th of March; and Region 9, the 15th and 16th of March. And the 
issues that we're going over is transportation, mass care, and 
evacuation.
    Since Katrina we're seriously looking at being able to 
establish sites, preidentified sites around the State, and 
especially in the earthquake area, but all around the State 
that we would use for mass shelter and mass care, plus also 
trying to identify sites for prestaging of equipment.
    And the final thing I'll say, and then I'll be open to your 
questions. They mentioned about trying to identify what are 
some of the damages that would occur if we had an earthquake. 
We are working with the Mid America Earthquake Center, which is 
headquartered in the University of Illinois, but it's made up 
of about 12 universities from around the country that are 
working on various aspects of earthquake.
    And they've developed an information model that also is 
compatible with hazards. And what I'm having them do in 
Illinois is do a risk assessment model for me where they're 
going to also add in the GIS data for local communities, and 
based on a certain seismic event, tell me what kind of damage I 
should expect in that community in terms of damage to the 
infrastructure.
    But because they also are doing sociological and economic 
impact studies, provide data that would allow us to be able to 
interact with the local community and really tell them what 
they should expect. And this, we believe, will allow 
communities----
    You know, it's more than about having a plan. It's about is 
your plan realistic? And, you know, that's even before you get 
into exercising and things of that nature. And, you know, does 
the resources necessary to implement that plan, do they marry 
up?
    And so we feel that this will allow us to really more 
seriously get the attention of local communities, but also 
provide us data where we can start to work with private 
businesses about their emergency plans and what the impact 
potentially of an event might be and get away from is it going 
to be 50 years from now or 10 years from now? But we can then 
systematically, based on funding and other priorities, start to 
work toward building, you know, capabilities to mitigate 
against that event.
    Subject to your questions, that's all I have right at the 
moment.
    Mr. Shuster. Thank you, Mr. Burke.
    Mr. Reynolds.
    Mr. Reynolds. Mr. Chairman, thank you very much for 
allowing me to come here today, and the members. It gives us an 
opportunity to let you know where we stand and the direction 
we'd like to go.
    Missouri State Emergency Management Operation Plan was 
developed in accordance with the FEMA State and local 
guidelines of 1996. It was in an all-hazards. We followed the 
National Incident Management System, NIMS, and the National 
Response Plan. During a catastrophic event, our incident 
commander would be our governor.
    After Katrina, we took a look at our all-hazard plan, and 
we realized that, as far as the earthquake portion of the 
catastrophic event, we needed to take and make some changes. So 
what we did, we developed some working groups to look at 
several different areas, and I'll go over those. Direction and 
control, mass care and sheltering, critical sources and 
logistics, evacuations, health and medical, interoperability 
communication, hazardous material, donation management, and law 
enforcement, and special need population.
    On those working groups, our subject met experts from the 
Federal level, State and local and nongovernmental 
representatives. Our volunteer organizations are very much 
involved on our working groups. What we're looking at is those 
things that need an immediate change, those things that we will 
exercise leading up to the SONS exercise.
    One of the things that we're doing, also, is going around 
and trying to get input from the local jurisdiction. There's 
about 47 counties in the State. A little over less than half of 
our State could be impacted by a New Madrid 7.7 earthquake. 
We've been able to get information, the desires, concerns, and 
let them know the planning procedures that the State is 
planning.
    We're also working very closely with our bordering States 
to the west. We feel very strongly that's where most of our 
support would come from, Iowa, Nebraska, and Kansas. So that's 
what we're looking at as far as prestaging things. Some of the 
things and evacuations may be evacuated all the way to Iowa, 
Kansas, so we are working and talking to those States about, 
you know, sheltering needs that we would have.
    Earthquake, it's not like a hurricane. You know, you have 
no notice. It just happens. What we're looking at now is an 
automatic respond concept. It was something our National Guard 
had in their plan where, if it's a 6.4 or higher, we 
automatically, whether we get a phone call, once we know that's 
what it is, we are supposed to report to our EOC, stand that 
up, and we start coordinating with the local, and we ask--if 
they've been able to contact us.
    Now, if they don't contact our EOC, we feel that probably 
there is, you know, communication breakdowns. A lot of the 
tires will go down, several tires. So we have an automatic 
response plan that we'll be initiating across the entire 
States.
    Certain trigger points. One of the first things we will do 
is coordinate with the National Guard and our Missouri 
Department of Transportation to see what highways are available 
to, you know, in and out of the area.
    We'll also look at the bridges, you know, if they can be 
used or if they're ones we need to get someone on the ground. 
We have fixed wing as well as rotary wing that will be used for 
this.
    One of the things we're doing to get some input from our 
local jurisdiction, the 47 counties, we sent out a web-based 
survey to get input. And we wanted to know as far as the things 
that could help in the area, capacities that they can store 
supplies, you know, the accessibility in the building itself. 
We are asking that type of input. You know, we want some items 
that will cost money to be stored in the local communities and 
then have other areas outside the impacted area to make sure 
that we have areas that we have to evacuate, move people out of 
the area.
    One of the things that we use very much is we have area 
coordinators. We have nine regions across the State, nine troop 
areas, and we have coordinators who will work with the local 
jurisdiction as far as their plans. We're training in the 
things that we need to get information on.
    One of the things that we plan on using quite heavily is a 
structural assessment and eventual evaluation. There is a group 
of about 1,000 professional engineers and architects who 
volunteer their services and would be available to look at the 
structures, you know, after the earthquake. That helps us to 
know if those buildings would be able to keep people in them, 
or would you have to take and evacuate because they could not 
go back in them?
    So we actually exercise with these folks. You know, we have 
a list of phone numbers. We activate their phone calls, and we 
make sure that they're still active. We're still growing that 
number. You know, we've used those before in hurricanes--not 
hurricanes, but tornados, and it was quite effective.
    One of the other things that we use and we will continue, 
and that's our Community Emergency Response Teams, CERT teams. 
They're trained in first aid, triage, and light search and 
rescue. We have over 6,000 of those across the State. We're 
about fifth in the Nation as far as CERT teams in the country.
    We talked about prepositioning earlier. The conversation 
was what we're looking at doing, and it will cost money, is 
prepositioning some items in the Midwest. If you look along the 
gulf coast, you've got items, critical items that's 
prepositioned there. We really think that something needs to be 
looked at with New Madrid. We don't have the three or four days 
when you have a hurricane coming to shore. With an earthquake, 
again, it just happens.
    So we would encourage at any level, and someone listen to 
this, you know. We've talked to FEMA and will continue to talk 
to them because I think we're going to submit a formal request 
because we think it just makes sense to have items within our 
State within close proximity, if not in our State, where we 
could get those in very short notice.
    Subject to your questions, that's all I have.
    Mr. Shuster.Thank you very much, Colonel. As I mentioned 
earlier, I served on the Katrina committee, and there were 
really five general reform principles, and I just want to run 
over them and then try to get some of your feedback on what 
your thoughts are.
    First was that catastrophic disasters require early 
Presidential involvement to engage Federal resources.
    Second, large disasters require DOD support, and we're 
talking catastrophic disasters.
    Three, disaster preparedness functions need to be closely 
integrated and managed with response functions. And today 
preparedness and response have been split at DHS.
    Four, FEMA's essential response capabilities must be 
restored and enhanced, professional work force, a 21st century 
logistics capacity as well as communications that can survive 
and are interoperable.
    And five, tension between the Nation's all-hazards 
emergency management system. And terrorism preparedness must be 
resolved.
    A couple of those, the first one, the Presidential 
engagement in a catastrophic event; and I wanted to ask you, 
when you have a disaster in Illinois or Missouri, do you have a 
direct access to your Governor? There's nobody in between you? 
You're going to the Governor?
    Mr. Burke. Yes, sir.
    Mr. Shuster. That's in both cases?
    Mr. Burke. Yes, sir.
    Mr. Shuster. Which I think we saw in Katrina, that wasn't--
that didn't happen the way it should have. Mr. Burke, you 
mentioned about DOD. I think we're in the same accord. DOD, 
although they did a great job in New Orleans, it still takes 
them time to move such a large animal, so to speak.
    I think one of the real success stories down there were the 
EMACs and Florida. The National Guard of Florida came right up 
the coast right behind Katrina, so there were 6,500 Florida 
National Guardsmen in Mississippi as soon as the storm cleared 
out.
    So what are your thoughts? Can you explain a little bit on 
DOD? I think they've got to be part of the solution.
    Mr. Burke. I don't want you to misunderstand, Congressman. 
Certainly, utilization of DOD should be absolutely considered 
in a major disaster. However, this thought or trend that seems 
to be out there saying that they should automatically come in 
and like take over, I certainly, as an Emergency Management 
Director, don't subscribe to that, and I think it's potentially 
asking for more chaos. As I indicated that the system is a 
bottom-up system, and DOD should be considered a resource.
    And if there are failings at the lower level--and the 
reason we talk about unified command, that means that, like in 
my State, FEMA comes into--even for Katrina, while we were, you 
know, as part of EMAC, supporting specifically Louisiana quite 
a bit, but also Mississippi, well, a representative from 
regional FEMA came into my EOC to liaison and understand 
exactly what was taking place and what we were, you know, 
confronting.
    So that if I asked them for some kind of assistance for 
information or something from the Federal side, they 
understood, you know, very well what it was, and then they 
would feed it back to their regional people, and I'd leave the 
answer to come back to me, you know, from that individual.
    So all I'm saying is that if the military comes in, as far 
as I'm concerned, my Governor, we have a tag, and the National 
Guard is an integral part of our emergency preparedness 
operation. When we activate the EOC, there is a liaison that 
sits there, and any military assets we need, we give that 
mission to him. They fill the mission, and they control, you 
know, how they're going to fill the mission, but they have all 
the information as to if they need law enforcement assistance 
and routes or if they need medical emergency assistance. We 
know that because we collaborate. You know, everybody is there 
with all the information, so when it's passed on, they have 
that.
    An example is I mentioned sending 900 firemen and 100-and-
some pieces of equipment. This was by truck convoy. But the 
reason they were able to do that is, I mentioned mutual aid. 
These firemen not only have interoperable equipment, but they 
train together. The special teams train together, even though 
they come from disparate fire departments. They were from, I 
think, 105 different fire departments, like two, three, four 
people. But the command structure is because it was together.
    So for the military, they need to be prepared to not think 
that they are the single rescuer but that they are a part of 
the resources that are going to, you know, come and help us get 
the situation under control and get to the recovery stage.
    Mr. Shuster. Mr. Reynolds, or Colonel Reynolds, you were 
fairly critical of the FEMA when it came to all-hazards 
approach. I think you said somewhere in there something to the 
effect that they paid lip service to it. Can you talk a little 
bit more about that.
    Mr. Reynolds. Well, what I would say is it wasn't FEMA. It 
would be the Homeland Security, would say, all-hazards.
    Mr. Shuster. ODP.
    Mr. Reynolds. Right. I mean, the definition, you know, it 
sounds, you know, OK, it should cover terrorists as well as 
man-made. Well, a good many opportunities, you know, I think 
what we could have had training or had something done using 
those dollars, that was not allowed because it didn't have a 
terrorist scenario with it. So I think those things are 
changing, and I think it's about time because I think we can 
better spend our dollars.
    Mr. Shuster. That's changing, in your view, since Katrina.
    Mr. Reynolds. That's right, sir.
    Mr. Shuster. OK. Mrs. Emerson.
    Mr. Reynolds. One thing I'd like to say, if I could.
    Mr. Shuster. Sure.
    Mr. Reynolds. In reference to, you know, what my colleague 
from Illinois. As far as the military, the military, they 
definitely have a role, but that role should be well 
coordinated with the State. You know, our Governor and our 
Adjutant General, they work hand in hand, we work hand in hand. 
And to say that we're going to send in NORTHCOM without a 
request in Missouri, we don't think that would ever be the 
case.
    Mr. Shuster. Mrs. Emerson.
    Mrs. Emerson. Thank you, Mr. Chairman, Colonel Reynolds. In 
case of a catastrophic earthquake, do you at the State, as 
Director of the State Emergency Management Agency, feel like 
you have the one critical phone number that you need to call 
for more help, the one critical phone number to a, a 
department, an agency that would be responsive? Do you have 
that number right now?
    Mr. Reynolds. And you're talking about outside the State.
    Mrs. Emerson. Yes, sir.
    Mr. Reynolds. I do. And I have a very good working 
relationship with our Region 7 FEMA director, Mr. Dick Hainje. 
And we talk, you know, and I can tell you our relationship is, 
when something happens on the news, if it's something in 
Missouri he thinks is going to impact me, I get a phone call 
from him, or I can call him for something. So I do have that 
point of contact.
    Mrs. Emerson. You know, and to you, Mr. Burke, I mean 
really to both of you, the scary thing about an earthquake as 
compared to a hurricane is you don't quite know exactly what to 
anticipate. You know, I don't suppose that we even have a map 
with critical assets locations as well as transportation 
infrastructure that would be standing.
    I mean, we don't even really know what would be standing at 
this point in time after a major earthquake, do we? Other than, 
obviously, I know that my new courthouse in Cape Girardeau, 
which is being built to earthquake specifications and the 
Emerson bridge, but I mean, we don't know that stuff yet, do 
we?
    Mr. Burke. Well, in Illinois--I'm sorry, Ms. Congresswoman.
    Mrs. Emerson. Yes.
    Mr. Burke. In Illinois, our Department of Transportation, 
as far as transportation, they've been retrofitting and looking 
at bridges for the last ten years.
    The question specifically of what would still be standing 
is, you know, I don't want to uncategorically say that the 
bridges that have been retrofitted will absolutely be standing, 
but they feel, based on the steps that were taken--they've put 
cables so that spans won't drop, and they've actually wrapped 
piers so that the concrete and stuff won't crumble and add 
anchoring systems.
    And so we, much like my counterpart, we have the engineers, 
volunteer engineers, but engineers from IDOT, they already have 
an inspection plan that they would implement to actually tell 
us what transportation systems would take, you know, what kind 
of loads.
    If, in fact, a structure is still up, we would expect in 
very short order to be able to determine, like could we have 
one lane of traffic as opposed to four. And so, I mean, we 
certainly are looking at that and understand that to be 
something that's very important.
    I mentioned the May Center, and I don't want to overstate 
their capability, but they are really now starting--they, 
meaning the consortium of the university, has come forth with 
outcomes that I think States can use and even independent 
universities or other universities in some of the CUSEC States 
are starting to do earthquake research.
    The reason I did this mitigation contract with the May 
Center--which was funded by FEMA, mind you, after we told them 
what they were going to do and the capability of what could 
come out of it. As I mentioned, we hope to use this information 
because it's supposed to be able to tell us, once we put the 
GIS in there, it's a software simulation that, say, at 6.8 tell 
you what kind of damage would occur based on the geographic 
information in the system. So we should know what kind of 
damage to buildings, you know, also, what kind of economic 
impact for that particular community.
    And as I mentioned, we want to use that so that communities 
really look at in terms of the damage that may occur, what is 
it that they need to be doing to kind of take care of 
themselves, say, even until we come, but for us to also 
understand at the State level, you know, how quickly even we 
may need to get there.
    But we're looking at like, say, the State buying and 
prepositioning certain aspects and perish--nonperishables. We 
already prepositioned some medical supplies, but we may 
actually increase that so that in that community, we have, or 
within a region, we have a better response capability.
    Right now, absent transportation systems totally breaking 
down, we can take the same capability that exists in the city 
of Chicago to anyplace in our State in 60 minutes. And, you 
know, that may be hampered. But we want to also look at, if 
we've got to bring in some of our stuff by air, you know, what 
potentially would be the locations for us to do that, you know, 
a helicopter. I mean this, just, like you say, is something 
that is unexpected.
    So we're trying to, I guess, mind map as much as we can and 
try to think through what are some of the unexpected things 
we're going to have to confront.
    Mrs. Emerson. Thanks. Colonel Reynolds, let me just ask you 
a quick question. You mentioned in your opening remarks, we 
have 47 critical counties in the State of Missouri that would 
be impacted and that you had also sent a web-based survey to 
all those first responders.
    Do we have communications equipment--or let me say it a 
different way. Does the first responder community in each of 
those 47 counties have communications equipment that can talk 
to you and vice-versa under any kind of a situation? And, 
obviously, Web-based probably is not going to be applicable at 
that point. Is there some way for us to talk on some 
interoperable system to everybody in the case of an emergency?
    Mr. Reynolds. Right now what we have in place, ma'am, is a, 
there's, I think it's the number, I think it's around 37, 38 
satellite phones throughout that area. We'll rely heavily on 
that. And we understand that's not a cure-all, you know, but 
right now we think that is our best opportunity.
    Highway Patrol is the lead for it, interoperability 
communications in the State. What they're looking at is some 
different radios, and I'm not a radio person so I can't tell 
you those, but they're looking at those. Once, you know, we get 
those on board, you know, that would probably be, our probably 
the most surest way of communicating. But right now satellite 
phones is what we rely upon.
    Mrs. Emerson. So is that one per county.
    Mr. Reynolds. I don't have the breakdown on that, ma'am. I 
can get that and get it to you.
    Mrs. Emerson. OK. I was just wondering because what happens 
if that one person or the one place in the county that that 
phone is housed, if you will, something happens to that person 
or that building?
    Mr. Reynolds. I understand completely.
    Mrs. Emerson. So redundancy, I guess, is really critical.
    Mr. Reynolds. Again, you know, there's a cost for every----
    Mrs. Emerson. I was just going to ask you.
    Mr. Reynolds. I would like to think that we would be able 
to do that, but it's a very good situation, and we probably 
need to have more radios there because you don't have 
redundancy if there's one in the county or one in the city.
    Mrs. Emerson. Well, hopefully, once you all get your 
assessments completely done, you know, then we'll all lobby the 
State legislatures from both of our States to provide you all 
with the funds that you need to be prepared. That's the only 
thing we can do, I guess.
    Mr. Burke. I would have to comment because, as a matter of 
fact, my colleague's, some of his staff was over in my EOC 
discussing some of this with my folks. I'm sure they're going 
to make some of these recommendations back to Missouri.
    What we did is we put--we offered 4,000 Starcom 21 radios 
to every emergency management or, actually, every first 
responder, including hospital organizations, in the State. 
Twenty-three accepted them. You know, a few organizations 
didn't.
    But what that does is that gives us 800 megahertz radio 
capability by satellite so that they can at least communicate 
with our EOC. Now, within their own city or town, they'd have 
to use what system they have. But at least we would have, at a 
central point, information where they could feed into our EOC.
    I think that's something that probably all--I don't want to 
say all, but many States in the country, whether they've 
implemented it right at this point, are going to be looking at 
because that's like the kind of bottom line rudimentary system, 
800 megahertz, that you would use if all else failed or in the 
interim while you were waiting.
    In Illinois, one of the things we were able to do for 
Katrina, we have some mobile emergency communication equipment 
that will give you voice and data, and we did set that up down 
in Baton Rouge. But that, you know, you've got to transport 
that and get it----
    Mrs. Emerson. Sure.
    Mr. Burke. But in the interim, you know, we would look to 
800 megahertz. But we're trying to make sure that all of the 
first responders and hospital organizations have at least one 
radio. Now we're providing one. They can buy more for, if they 
want to spread them around their organization if they think 
their current infrastructure is not enough.
    Mrs. Emerson. Thank you. Thank you, Mr. Chairman.
    Mr. Reynolds. One thing. Amateur radios, ham radios, and we 
have a good many of those, and they actually exercise. They're 
volunteers throughout the regions, and they will use those. So 
I did forget about those. But, yeah, the ham radios, that is an 
old system, but it still works.
    Mrs. Emerson. Excellent. Thank you.
    Mr. Shuster. My next question to ask you--first of all, how 
long have the two of you been involved with emergency 
management so I gauge how I ask this next question? You've been 
involved for----
    Mr. Burke. Three years. I've been the Director for 3years.
    Mr. Shuster. Before that, did you have experience within 
emergency management.
    Mr. Burke. My military experience, but I was the regional 
administrator for general services, and I logistically 
supported a number of Presidential disasters.
    Mr. Shuster. Mr. Reynolds.
    Mr. Reynolds. Just a little over a year and prior military.
    Mr. Shuster. OK. My question that I've been asking folks, 
but you guys don't have the--I was going to say 10 years ago, 
how did you think FEMA reacted, and how was it operated? So I 
guess my question, and I think Mr. Reynolds you've already 
answered you've seen a change since Katrina in FEMA.
    What about you, Mr. Burke? In your 3 years have you seen, 
from FEMA--you would have started in emergency management just 
as FEMA came into DHS. What's your sense of how it's worked?
    Mr. Burke. My regional relationship, I think, is excellent, 
and my regional director is, you know, a very, very talented 
guy. I have no complaints about how that relationship has 
worked with them.
    I would certainly say that the Federal response--and I 
won't put it on one organization--they asked us to be NIMS 
compliant, and it has certain principles; and they asked us to 
use unified command, and it has certainly principles. I think 
it's imperative for the system to work that they also use 
unified command. And if they do that, I think that coordination 
will help us all to perform better.
    Mr. Shuster. Do you have any more questions? I appreciate 
you being here today with us and educating us, and Colonel 
Reynolds, go ahead.
    Mr. Reynolds. One thing that's not been discussed today, 
and we've talked, you know, about the four different regions of 
FEMA that kind of, it has operations control over the CUSEC 
States. Should there be a point, you know, a massive 
earthquake, there's a lot of competing resources, you know, 
from all the districts, you know, from all the regions.
    I think as a Nation, we need to look at that, and it 
concerns me because I'm not sure if Region 5, 7 is competing, 
Region 3 to 5 competing. Tough decisions are going to have to 
be made for critical assets and resources.
    Mr. Shuster. I think that's why it's so imperative that we 
have an exercise to be able to, if we have an 8, an earthquake 
8 point on the Richter scale, what's going to happen? Where do 
things come from? Do we immediately call DOD in so they're on 
the move as soon as that hits because everybody has been 
overwhelmed.
    So I think you're absolutely correct, and I think that that 
exercise goes a long way. I think Mr. Wilkinson said earlier 
there's other smaller exercises that are going on to try to 
piece that together, but that major exercise is critical, which 
we saw down in New Orleans, that Hurricane Pam exercise. It 
told us what was going to happen. Fortunately, the devastation, 
the loss of life wasn't as great as Pam said it was. But you're 
absolutely correct.
    And I appreciate you being here today, and I'll say again, 
as I started off, it's absolutely critical that you engage your 
Members of Congress in the Senate or in the House to bring them 
up to speed on what your thoughts are on FEMA because if you 
don't, you're going to get something coming out of Washington 
that may not please you, may not work as well for you. So 
engage them. Let them know.
    And structure is important. I think Mr. Burke said earlier, 
somebody said earlier, structure is important, whether it's in 
Homeland Security or outside. I don't know if that's as 
important at making sure that FEMA is not----
    Mr. Burke. Functions.
    Mr. Shuster. Exactly. And I think Secretary Chertoff points 
out, rightly so, that the Coast Guard did a great job down in 
Katrina, but the Coast Guard, while it's housed in DHS, it's 
almost an autonomous, it's walled off from the competing for 
funds and manpower and those things. So the Coast Guard would 
have functioned well in DHS or outside of DHS because of its 
walled-off status.
    So, again, thank you all very much for being here. 
Appreciate you sharing with us. The committee now calls before 
it its third panel, our esteemed colleague from the Senate, 
Senator Jim Talent, who, working with Congresswoman Emerson, 
has been leading the effort for a major preparedness exercise 
in the New Madrid Seismatic Zone. That would include State and 
local entities.
    Mr. Shuster. Senator Talent, are you ready to launch?

 TESTIMONY OF THE HON. JAMES TALENT, FORMER U.S. SENATOR FROM 
                     THE STATE OF MISSOURI

    Senator Talent. Sure. And I know your time is short, Mr. 
Chairman, and I have a statement, which I'm going to submit for 
the record, and with your permission I'll just offer some 
observations, I think, in addition to that statements. And I 
want to focus a little bit on the request that Congresswoman 
Emerson and I have made for this exercise because I think the 
various investigations and the results that have been published 
and that we've seen show, again, the need for an exercise of 
that kind.
    And let me just make the point, particularly with regard to 
New Madrid, when we're dealing with so many jurisdictions and 
so many different States, it's essential that we do the smaller 
exercises that are necessary to--for us to know what, to know 
what capacity we have, where we have adequate search capacity, 
where we have infrastructure that is earthquake-ready, all the 
things that we need to know, and then to do the bigger 
exercise. And to do it, I think, confronting the real issue. Do 
a worst-case kind of scenario up and down that river and up and 
down that fault so that we know what it is we're confronting, 
and the problems are problems that come up in a dry run.
    And let me just point out a couple areas where I feel that 
would really help deal with some of the problems that we saw in 
these investigations.
    The first is the whole chain of command/leadership issue, 
which I think all of us had a gut sense was a problem with 
regard to Katrina. And it's easy to point fingers here and 
there.
    I don't know whether the Incident Command System and the 
structure that's set up through that is adequate. I think it 
would be good to test it with this kind of a dry run. It is 
essential that everybody up and down the system, those at the 
top and the players near the bottom or on the ground, know who 
is in charge of various responsibilities, know what decisions 
they are supposed to be making, and then I would add this, feel 
comfortable or reasonably comfortable making those kinds of 
decisions.
    You know, we don't send a general out in the field to 
command a division in battle without having put him or her 
through a number of scenarios where he's had to deal with the 
kinds of things that are likely to come up because we want him 
to understand and anticipate the decisions he has to make, and 
we want him to feel as comfortable as possible in that context.
    And yet we have been in situations in the past where we've 
had political appointees or politically elected officers, and 
even in some cases people who are professionals in the area, 
tossed into situations where they know they have to make very, 
very difficult decisions. They've not been in that--you know, 
they've not been in any kind of a dry run or scenario like that 
before. And the natural instinct of human nature at that point 
is to temporize, is to not be aggressive in reaching out and 
making decisions because you're unfamiliar. You know a lot 
turns on the decision that you make.
    Now, sometimes you get an actor who is such a natural 
leader, like Rudy Giuliani is, that, you know, he gets in that 
situation, and he just reaches out and decides it and does it. 
But, you know, I think it's human nature to sort of be a little 
bit tentative in those kinds of decisions. And I think I just 
ask everybody to examine whether that isn't what happened in 
some of these places with Katrina.
    Well, if we have this kind of a dry run that Congresswoman 
Emerson and I are talking about, and of course, we want it for 
the New Madrid situation, but other regions should identify the 
worst-case scenarios in their situation as well.
    Not only is it going to give the, you know, the first 
responders the opportunity to run through what it is they're 
going to need, but it's going to give the decision-makers the 
opportunity to do that. They'll see the other decision-makers 
who are involved in this. They'll have presented to them the 
kinds of decisions that they have to make.
    So if there aren't enough helicopters, they've thought 
about, well, where should the helicopters go first? And if 
there's an issue with search capability or interoperability, 
they've at least confronted those issues in some kind of a 
context.
    So I think the whole leadership issue, which is, I think, 
underlying a lot of the problems we have, we can help resolve 
with this kind of a dry run. It's especially important in 
earthquake context because you have no warning.
    I mean, some of this stuff, and this is an issue we all 
wonder about with Katrina, and the reports may differ, we could 
see that coming. At least you had several days where people 
should have been able to prepare. If we have an earthquake 
here, Mr. Chairman, as you know, you don't have time to 
prepare. That just hits. I mean, under some circumstances, you 
might get some idea if you have some preliminary type of 
quakes, but you certainly, you certainly can't count on that.
    Another issue that we have been concerned about and that my 
testimony deals with is communications. And we're all concerned 
about the problem because we have, every different first 
responder department has different kinds of radios, analog, 
digital, and how do they communicate with each other?
    Again, what we could do with a dry run or an exercise like 
this is explore what's happened in other States where they have 
set up interoperability type systems over the Internet, 
Internet protocol-type systems that permit people with 
different radios to communicate with each other by, in essence, 
going through this Internet protocol, which is a kind of 
switchboard.
    That can be set up on a State-by-State basis and then a 
regional basis. The Department of Commerce is exploring that on 
a Federal level, and I want to push in that area. And I just 
would urge the subcommittee to look at what we can do to help 
deal with this interoperability of communications issue short 
of going out and buying everybody a new radio system that's 
interoperable.
    I mean, that would be great, but the cost estimates I've 
seen are like $17- to $50 billion. And that's a lot of money to 
spend, and it's not going to happen overnight. So we've got to 
look at what we can do in terms of mutual aid bands and this 
sort of thing to help people communicate absent that.
    I have some other points of a more minor nature I make 
regarding logistics, etc., in my statement, but really what 
I've seen from the reports just reinforces my sense that what 
we need to do here and in other places is do the best we can to 
set this system up, analyze what our weaknesses are with regard 
to individual first responders or cities or localities, and 
then put together the kind of exercise that Congresswoman 
Emerson and I have asked for so that we can deal with these 
problems and anticipate as many of them as we can.
    And, again, I will just relate to the military context. I'm 
on the Armed Services Committee, have been now for 12 years, 
and we would never throw military officers who are trained to 
make these kinds of decisions, we would never throw them in 
these circumstances without trying to anticipate and re-create 
these decision-making matrixes for them as much as we can. And 
we should not put our top leaders or our leaders on the ground 
in that circumstance, either, without having these exercises.
    Mr. Shuster. Well, I think you hit the nail on the head. 
The exercise that we're talking about, the New Madrid exercise 
is critical. If we would have learned the lessons and had 
probably more experienced leadership at DHS at the time of 
Katrina, we would have taken those lessons and been prepared to 
push forward.
    I think that not only can you have these major exercises, 
but I think what we've done in Homeland Security with FEMA is 
not having four pillars of emergency management, of 
preparedness, response, recovery, and mitigation. They've all 
got to be working together. We have two teams. You've got a 
practice team and a game team. If they're not one and the same, 
on game day they're not going to work together.
    So I just have one question for you: If you've come to a 
conclusion or what your thoughts are on, do you think it's 
better if we leave FEMA in DHS or take it out? What are your 
general thoughts on that?
    Senator Talent. I always appreciated--I'll answer that 
question, Mr. Chairman, against the background of my experience 
with FEMA. And my first year in the Congress was in 1993 when 
we had the terrible floods of 1993, and my district suffered 
the biggest commercial disaster in that flood. I had a whole 
north half of one of my counties was under water. And I 
appreciated FEMA's response at all levels.
    And I thought--the first time that I saw FEMA fail on a 
fundamental level was after it had been incorporated into the 
Department of Homeland Security. So speaking for myself, I'm 
going to exercise the benefit of the doubt in favor of going 
back to a scenario where they're outside.
    Now, I know that works against the bureaucratic logic of 
having everybody in the same organization so they can work 
together. But I just don't know whether you can get an 
organization that is so big that it becomes more difficult to 
do that. That's how I would approach it.
    But I'm open, and I don't know that we've reached a 
definitive conclusion, and if the Committee and the other 
committees of jurisdiction study it and reach the opposite 
conclusion, I'm not going to fight you to the death.
    Mr. Shuster. I couldn't agree with you more. It's against 
the bureaucratic logic, but I think sometimes we need to get 
ourselves into more of a corporate or business logic. If you 
look at many of our companies, they look at their core 
competencies and say, "OK, we're building cars. We're not going 
to build tires. So let's put that into another company."
    And I think that's a situation where the core competencies 
of DHS should be terrorism prevention as law enforcement is 
really what they are. They're not an emergency response 
organization. So I appreciate your views on that.
    Senator Talent. Yeah, I think--I mean, it's pretty hard not 
to conclude, if you look at the experience that when FEMA was 
more or less on its own, it had a higher profile, a higher 
visibility, and probably got more attention across the board, 
and I never had a problem with how FEMA operated.
    Now, in fairness, the Katrina thing was, disaster was, of 
course, bigger than they ever had to deal with, so we have to 
judge that as well. I just think--and I will add this, Mr. 
Chairman, the exact bureaucratic setup is probably less 
important than these other--I mean, probably either one will 
work if we do the other things that we need to do.
    Mr. Shuster. Well, I don't know if you were here when I 
made the earlier statement. The Secretary points out, quite 
frequently, how well the Coast Guard responded. But the Coast 
Guard, although its within DHS, is really walled off from the 
competition, the funding. It's all appropriated and authorized, 
and they don't have to fight those battles of terrorism 
prevention versus emergency response. So, with that, 
Congresswoman Emerson.
    Mrs. Emerson. Thank you, Chairman. I will admit to agreeing 
with both of you on the issue of separating FEMA out. Anyway, 
Senator Talent, I just want to thank you so much for taking the 
lead in the United States Senate on the whole issue of what 
this region needs to do to prepare for an earthquake. And 
you're doing a great job, and I appreciate it more than you 
know.
    My one question to you is--excuse me--if you had to 
prioritize, what single asset would be the most critical in 
response to a humanitarian crisis, whether it's earthquake-
related one or widespread flooding, what would you identify as 
the critical component?
    Senator Talent. I'll give you a caveat. I have an answer to 
that, but I'm going to give you a caveat. I'm a big believer 
that in something like this, you don't--you want to believe 
what you see as you prepare rather than going in deciding 
you're going to see what you believe according to your 
preconceptions.
    And the whole point of these exercises and the rest of it 
is so that we can see what the situation is, and that might 
very well change the answer I'm going to give you. OK?
    But I think it's this whole communications situation, 
addressing it in some way, shape, or form. We have such good 
people involved in the first responder organizations. I mean, I 
am sure you all have seen this as you go out and about. I mean, 
if you're going to be a firefighter or a public health 
authority or a law enforcement person or in the National Guard 
or any of these areas, you probably have a vocation of wanting 
to help people in these circumstances.
    They're ingenious. They have, most of them, a tradition of 
mutual aid and protection. If they can communicate with each 
other on the ground, it can make up for a lot of sins. I mean, 
they can jerry-rig things quickly if they can talk to each 
other.
    So my feeling is that I don't know going in, without having 
these exercises, where the greatest need is, but if they can 
talk to each other, they may be able to jerry-rig a solution no 
matter where the need is. That's the reason I specifically 
mention interoperability. Where we can, we get the new 
equipment so they can talk directly; but where they can't, we 
have to have and concentrate on other solutions. That would be 
my answer subject to what we might find out in an exercise.
    Mrs. Emerson. I appreciate that. Thank you. Thank you, Mr. 
Chairman.
    Mr. Shuster. Senator, do you have anything else to add?
    Senator Talent. No. Just to thank you, Mr. Chairman, for 
your interest in this whole subject and also for your interest 
in what we're struggling with here in the New Madrid fault, and 
I hope you will take back and talk to the other colleagues and 
tell them that this is a very significant potential disaster. 
There's no other way to put it.
    And we don't know when that fault is going to go off. We 
know that eventually it's going to. And, you know, if it 
happens and we're not ready, it will be the absolute perfect 
storm. All these different States and jurisdictions, we have 
rivers in this context, I mean, it just--we have to be 
prepared.
    I can't think of a potential disaster around the country 
that could be worse than this, so I appreciate your interest 
and hope you will communicate to the other colleagues about it.
    Mr. Shuster. Well, I certainly will. Thank you for being 
here today, and I thank you for your leadership on bringing 
this to light. Additionally, I want to thank the other 
witnesses for being here today. Your discussion has been very 
informative and helpful.
    And I would ask unanimous consent that the record of 
today's hearing remain open until such time as all the 
witnesses have provided answers to any questions that may be 
submitted in writing and unanimous consent that during such 
time as the record remains open, additional comments offered by 
individuals or groups may be included in the record of today's 
hearing. Without objection, so ordered.
    If no one else has anything to add, then the subcommittee 
stands adjourned.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8264.001
    
    [GRAPHIC] [TIFF OMITTED] T8264.002
    
    [GRAPHIC] [TIFF OMITTED] T8264.003
    
    [GRAPHIC] [TIFF OMITTED] T8264.004
    
    [GRAPHIC] [TIFF OMITTED] T8264.005
    
    [GRAPHIC] [TIFF OMITTED] T8264.006
    
    [GRAPHIC] [TIFF OMITTED] T8264.007
    
    [GRAPHIC] [TIFF OMITTED] T8264.008
    
    [GRAPHIC] [TIFF OMITTED] T8264.009
    
    [GRAPHIC] [TIFF OMITTED] T8264.010
    
    [GRAPHIC] [TIFF OMITTED] T8264.011
    
    [GRAPHIC] [TIFF OMITTED] T8264.012
    
    [GRAPHIC] [TIFF OMITTED] T8264.013
    
    [GRAPHIC] [TIFF OMITTED] T8264.014
    
    [GRAPHIC] [TIFF OMITTED] T8264.015
    
    [GRAPHIC] [TIFF OMITTED] T8264.016
    
    [GRAPHIC] [TIFF OMITTED] T8264.017
    
    [GRAPHIC] [TIFF OMITTED] T8264.018
    
    [GRAPHIC] [TIFF OMITTED] T8264.019
    
    [GRAPHIC] [TIFF OMITTED] T8264.020
    
    [GRAPHIC] [TIFF OMITTED] T8264.021
    
    [GRAPHIC] [TIFF OMITTED] T8264.022
    
    [GRAPHIC] [TIFF OMITTED] T8264.023
    
    [GRAPHIC] [TIFF OMITTED] T8264.024
    
    [GRAPHIC] [TIFF OMITTED] T8264.025
    
    [GRAPHIC] [TIFF OMITTED] T8264.026
    
    [GRAPHIC] [TIFF OMITTED] T8264.027
    
    [GRAPHIC] [TIFF OMITTED] T8264.028
    
    [GRAPHIC] [TIFF OMITTED] T8264.029
    
    [GRAPHIC] [TIFF OMITTED] T8264.030
    
    [GRAPHIC] [TIFF OMITTED] T8264.031
    
    [GRAPHIC] [TIFF OMITTED] T8264.032
    
    [GRAPHIC] [TIFF OMITTED] T8264.033
    
    [GRAPHIC] [TIFF OMITTED] T8264.034
    
    [GRAPHIC] [TIFF OMITTED] T8264.035
    
    [GRAPHIC] [TIFF OMITTED] T8264.036
    
    [GRAPHIC] [TIFF OMITTED] T8264.037
    
    [GRAPHIC] [TIFF OMITTED] T8264.038
    
    [GRAPHIC] [TIFF OMITTED] T8264.039
    
    [GRAPHIC] [TIFF OMITTED] T8264.040
    
    [GRAPHIC] [TIFF OMITTED] T8264.041
    
    [GRAPHIC] [TIFF OMITTED] T8264.042
    
    [GRAPHIC] [TIFF OMITTED] T8264.043
    
    [GRAPHIC] [TIFF OMITTED] T8264.044
    
    [GRAPHIC] [TIFF OMITTED] T8264.045
    
    [GRAPHIC] [TIFF OMITTED] T8264.046
    
    [GRAPHIC] [TIFF OMITTED] T8264.047
    
                                    

</pre></body></html>
